<html>
<title> - INNOVATION IN SURFACE TRANSPORTATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                  INNOVATION IN SURFACE TRANSPORTATION

=======================================================================

                                (115-52)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 5, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                             _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-627 PDF                WASHINGTON : 2018                                  
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BOB GIBBS, Ohio                      GRACE F. NAPOLITANO, California
DANIEL WEBSTER, Florida              DANIEL LIPINSKI, Illinois
JEFF DENHAM, California              STEVE COHEN, Tennessee
THOMAS MASSIE, Kentucky              ALBIO SIRES, New Jersey
MARK MEADOWS, North Carolina         JOHN GARAMENDI, California
SCOTT PERRY, Pennsylvania            HENRY C. ``HANK'' JOHNSON, Jr., 
RODNEY DAVIS, Illinois               Georgia
MARK SANFORD, South Carolina         ANDRE CARSON, Indiana
ROB WOODALL, Georgia                 RICHARD M. NOLAN, Minnesota
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut, 
GARRET GRAVES, Louisiana             Vice Ranking Member
BARBARA COMSTOCK, Virginia           LOIS FRANKEL, Florida
DAVID ROUZER, North Carolina         CHERI BUSTOS, Illinois
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              BRENDA L. LAWRENCE, Michigan
JOHN J. FASO, New York               MARK DeSAULNIER, California
A. DREW FERGUSON IV, Georgia         STACEY E. PLASKETT, Virgin Islands
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin
VACANCY

                                  (ii)

  


                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
FRANK A. LoBIONDO, New Jersey        STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           RICHARD M. NOLAN, Minnesota
BOB GIBBS, Ohio                      DINA TITUS, Nevada
JEFF DENHAM, California              SEAN PATRICK MALONEY, New York
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
MARK MEADOWS, North Carolina         JARED HUFFMAN, California
SCOTT PERRY, Pennsylvania            JULIA BROWNLEY, California
RODNEY DAVIS, Illinois               ALAN S. LOWENTHAL, California
ROB WOODALL, Georgia                 BRENDA L. LAWRENCE, Michigan
JOHN KATKO, New York                 MARK DeSAULNIER, California
BRIAN BABIN, Texas                   EDDIE BERNICE JOHNSON, Texas
GARRET GRAVES, Louisiana             MICHAEL E. CAPUANO, Massachusetts
BARBARA COMSTOCK, Virginia           GRACE F. NAPOLITANO, California
DAVID ROUZER, North Carolina         DANIEL LIPINSKI, Illinois
MIKE BOST, Illinois                  HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LaMALFA, California             Georgia
BRUCE WESTERMAN, Arkansas            LOIS FRANKEL, Florida
LLOYD SMUCKER, Pennsylvania, Vice    CHERI BUSTOS, Illinois
Chair                                FREDERICA S. WILSON, Florida
PAUL MITCHELL, Michigan              DONALD M. PAYNE, Jr., New Jersey
JOHN J. FASO, New York               PETER A. DeFAZIO, Oregon (Ex 
A. DREW FERGUSON IV, Georgia         Officio)
MIKE GALLAGHER, Wisconsin
VACANCY
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Jim Barna, Executive Director, DriveOhio, Ohio Department of 
  Transportation:

    Oral statement...............................................     4
    Prepared statement...........................................     6
Julia Castillo, Executive Director, Heart of Iowa Regional 
  Transit Agency (HIRTA), on behalf of the Community 
  Transportation Association of America:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Shailen P. Bhatt, President and Chief Executive Officer, 
  Intelligent Transportation Society of America (ITS America):

    Oral statement...............................................    15
    Prepared statement...........................................    16
Randell Iwasaki, Executive Director, Contra Costa Transportation 
  Authority:

    Oral statement...............................................    24
    Prepared statement...........................................    26

                       SUBMISSIONS FOR THE RECORD

Responses of Julia Castillo to questions for the record from Hon. 
  Scott Perry....................................................    57
Responses of Shailen P. Bhatt to questions for the record from 
  Hon. Mike Gallagher............................................    57
Responses of Randell Iwasaki to questions for the record from 
  Hon. Scott Perry...............................................    58
Randall Iwasaki, submission of information about 511CC Scoop 
  Incentive Pilot Program and Innovate 680 



                        ADDITIONS TO THE RECORD

Prepared statement of Catherine Chase, President, Advocates for 
  Highway and Auto Safety........................................    63
Prepared statement of the American Road and Transportation 
  Builders Association...........................................    91
Prepared statement of Jason Levine, Executive Director, Center 
  for Auto Safety................................................   123
Issue analysis, ``Validating Safety: The Next Phase in Developing 
  Automoted Driving Systems,'' Tom Karol, General Counsel-
  Federal, National Association of Mutual Insurance Companies....   129
Prepared statement of the U.S. Vehicle Data Access Coalition.....   141

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  INNOVATION IN SURFACE TRANSPORTATION

                              ----------                              


                      WEDNESDAY, SEPTEMBER 5, 2018

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2167, Rayburn House Office Building, Hon. Sam Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Missouri. The subcommittee will come to 
order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Good morning. I want to welcome everybody to today's 
hearing. We are going to hear from our non-Federal partners on 
some of the innovations that they are using to improve our 
surface transportation system.
    The FAST Act [Fixing America's Surface Transportation Act] 
was reauthorized on the Federal surface transportation programs 
through fiscal year 2020. And through these programs, our non-
Federal partners are investing in research, transportation 
technologies, and other innovations to meet the current and 
future needs of our communities.
    For example, some of our communities have invested in 
intelligent transportation systems, others have experimented 
with autonomous and connected vehicles, and some have been 
partnering with the private sector to improve the quality of 
life for the general public.
    The population and the amount of freight moving through our 
Nation is projected to increase significantly over the coming 
decades, and being innovative and utilizing transportation 
technologies where it makes sense to do so is going to help our 
surface transportation system move people and goods safely and 
more efficiently.
    Innovative solutions and transportation technologies are 
going to be applied differently across our Nation, and it is 
vital that we share the best practices and the best lessons 
that are learned. The leaders with us here today are going to 
showcase some of those innovations and technologies that are 
currently being used on our highways and our public transit 
systems. Congress has to continue to provide our non-Federal 
partners with the flexibility to implement innovative solutions 
and to deploy transportation technologies that are going to 
work best for them.
    And with that, I look forward to your testimony, and I now 
turn to Ranking Member Norton for her opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman. I really 
appreciate this hearing.
    This is a fascinating time to be a member of this committee 
and this subcommittee. I remember when I first chose this 
committee and see now how it has changed and believe it has got 
to change even further, because our mission is no longer about 
cars and trucks and roads and bridges. I mean, of course, there 
was a time when we had surface transportation bills passed, and 
when they passed, the amount of money we put in to roads and 
bridges automatically went up. That is gone.
    While we are fixing that, we must not take our eyes off of 
these fast-moving technological advances, which under our feet 
and right before our eyes are changing the way people move, the 
way they get from one destination to the other. We see in 
transportation technology innovations that can solve some of 
our worst problems. Every Member sees those problems just 
getting to the House through the streets of the District of 
Columbia.
    We see that the new technology may not only help us solve 
these excruciating congestion problems, but can help us save 
lives and innovate for safety. For example, the cars that drive 
themselves, the electric cars make us nervous when we hear 
about a car without a driver, until we learn that those cars 
are far safer than the cars that we ourselves drive.
    Now, there has been a safety mishap here and there, but 
compare that to the mishaps that occur every day on the streets 
of the United States. The whole notion of being able to have a 
choice as to the form of transportation, and we already see 
those choices coming before us. Will it be an Uber or a Lyft? 
Will it be a subway? Will I take my car? Not too long ago, most 
people didn't have but one choice when it came from getting 
from one place to another.
    At the same time--and I must, I think, call attention to 
the two screens that we have to have before us, because while 
we are looking to the future, as I am grateful that this 
hearing does, we have immediate problems in the near term, and 
those problems really do have to do with old-fashioned 20th-
century surface transportation problems that need to be 
addressed.
    We have a funding crisis, and we have not yet found any way 
to increase funding for old-fashioned transportation needs. 
Witness how we got the FAST Act passed. We got it passed 
because we simply said that we declared a 6-year bill was a 5-
year bill, and therefore, there was more money because it was 
over 5 years. We can't keep doing that. So we have got to work 
on both kinds of transportation, the new transportation that is 
coming at us, like it or not, and the old-fashioned 
transportation that we still haven't caught up on.
    We are looking for the most cost-effective and efficient 
transportation solutions, and we are looking for commercially 
viable solutions because that is the way to make these new 
innovations available to the public.
    I do want to indicate that while I am excited about these 
innovations for the way they will affect big cities like the 
ones I represent, these changes are critical for rural areas as 
well.
    I want to commend Ms. Castillo for your testimony, which 
reminds us of the advancement of the investment necessary in 
rural America and how they are consistent with the kinds of 
innovations that I have just indicated. We need to consider 
that suburban and rural areas benefit from the same options 
that I have been describing.
    So I will be particularly mindful of and attentive to your 
testimony as we prepare for a new surface transportation bill, 
while thinking on the other side of the brain about how to 
bring transportation innovation into the 21st century.
    Thank you again, Mr. Chairman.
    Mr. Graves of Missouri. Thank you very much.
    It is a pleasure to have Congressman DeFazio, who is the 
ranking member of the full committee with us. I would ask for 
your statement.
    Mr. DeFazio. Thanks, Mr. Chairman. Thanks very much for 
holding this hearing.
    Obviously, we are looking at a very large number of traffic 
deaths this year. Congestion is worse than ever. And the 
question is, how much will new technologies be able to address 
these concerns, both the fatalities and the congestion? I think 
there is great promise, but there are a lot of unanswered 
questions as we move forward.
    About a year ago, I went out to California. I called it my 
visit to the future. And I visited Autodesk; and I went to Uber 
to see their driver-assisted truck; Tesla; and Waymo. And it 
was pretty extraordinary, particularly--not to be plugging 
anybody here, Waymo in Mountain View at near rush hour with 
construction and all sorts of challenges, the driver never even 
got close to touching the wheel. It was an extraordinary 
experience.
    And I can see where these technologies could both 
facilitate dealing with congestion. You know, you get 
frustrated sitting at traffic lights when the jerk in front of 
you is on the cell phone and didn't see the light change. The 
cars will take care of those problems in the future.
    But then there are questions about what are the algorithms. 
MIT had an online quiz to see what the algorithm should look 
like, and they gave you a series of incidents. You are driving 
the car, a kid runs in front of you with a ball. Well, you are 
going to turn and crash into the wall.
    Another one is you just saw some guy mug somebody. He is 
running across the street with the purse. You can turn and 
crash into the wall or you can run over the mugger. What are 
you going to choose? Well, I chose to run over the mugger. So, 
what are the algorithms going to be?
    So it was an interesting test, and at the end, they showed 
what the history was. And then the question of where we are 
today, which is, it is all voluntary. It is all based in the 
innovation that is going forward, which I think with the new 
technology is appropriate, but at some point it has to be 
integrated into the national system.
    And if it is going to be integrated into a uniform national 
system, at some point, the Government is going to have to be 
involved in setting some regulation dealing with the industry. 
We don't want to end up with things that are incompatible with 
one another, you know.
    I was on the Committee on Homeland Security for many years, 
and we never--I don't even think they have still gotten to 
totally--I am trying to remember the word--interoperable 
communication systems. And so the same thing here with these 
technologies. So we have got to be sure that there aren't going 
to be conflicts between competitors and different technologies 
and things that will perhaps work in some areas of the country 
won't work in others.
    I think it was Waymo said that they were having trouble 
with rain so they were trying to operate in Seattle, and they 
kind of were doing OK with rain, but they are still having 
trouble with snow and other things. So, obviously it is an 
evolving technology, very quickly evolving. But at some point, 
we are going to have to make sense of it and in an integrated 
21st-century system for the country, and that is why we are 
here today, to learn more about how we might do that.
    So thank you for holding the hearing.
    Mr. Graves of Missouri. All right. I want to, again, 
welcome our panel here. And today we have Mr. James Barna, who 
is the executive director of DriveOhio; we have Ms. Julia 
Castillo, who is the executive director of Heart of Iowa 
Regional Transit Agency, and she is here on behalf of the 
Community Transportation Association of America; Mr. Shailen 
Bhatt, president and CEO of ITS America; and Mr. Randell 
Iwasaki, who is the executive director of Contra Costa 
Transportation Authority.
    And I would ask unanimous consent that our witnesses' full 
statements be included into the record. And without objection, 
that is so ordered.
    And since your written testimony is being made a part of 
the record, the committee would request that you try to limit 
your summary to 5 minutes.
    And with that, we will start with Mr. Barna.

  TESTIMONY OF JIM BARNA, EXECUTIVE DIRECTOR, DRIVEOHIO, OHIO 
    DEPARTMENT OF TRANSPORTATION; JULIA CASTILLO, EXECUTIVE 
  DIRECTOR, HEART OF IOWA REGIONAL TRANSIT AGENCY (HIRTA), ON 
BEHALF OF THE COMMUNITY TRANSPORTATION ASSOCIATION OF AMERICA; 
   SHAILEN P. BHATT, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
 INTELLIGENT TRANSPORTATION SOCIETY OF AMERICA (ITS AMERICA); 
     AND RANDELL IWASAKI, EXECUTIVE DIRECTOR, CONTRA COSTA 
                    TRANSPORTATION AUTHORITY

    Mr. Barna. Thank you, Chairman Graves.
    Chairman Graves, Ranking Member Norton, and members of the 
subcommittee, my name is Jim Barna. I serve as the executive 
director of DriveOhio. I am pleased to appear here today on 
behalf of Governor John Kasich and Ohio Director of 
Transportation Jerry Wray to talk with you about the important 
ways we are preparing Ohio for the future of smart mobility.
    With autonomous and connected vehicles dominating both the 
automotive and infrastructure agendas across the globe, 
DriveOhio was created by Governor Kasich as a one-stop shop for 
those looking to safely develop, test, and deploy advanced 
mobility solutions in Ohio. We are establishing Ohio's 
leadership in this realm by providing a single point of 
collaboration for the dozens of public and private entities in 
our State that are involved in the design, development, 
testing, use, and regulation of autonomous and connected 
technologies.
    As the State center for smart mobility, DriveOhio brings 
these agencies and organizations under one umbrella, serving as 
a single point of contact for all of Ohio's smart mobility 
initiatives and advancements. DriveOhio fosters cooperation, 
innovation, and collaboration, offers faster access to 
resources by breaking down Government barriers for people and 
organizations that want to be part of this industry.
    Our work is guided by four fundamental pillars: 
transportation safety, which is first and foremost; 
reliability, mobility, and workforce. We have nearly a dozen 
smart mobility projects either under construction or soon to be 
announced, projects aimed at testing advanced transportation 
technologies in a variety of real-life smart mobility 
applications, including improved access to work, education, 
healthcare, and the essentials of a healthy productive life.
    One of the biggest things we are learning is the importance 
of using public-private partnerships to achieve our goals. Our 
public-sector partners, including nine State agencies and 
municipalities from across the State, are participating in 
working groups along with the automotive industry, academia, 
and Ohio's world-class research and development institutions. 
Together, they are working to ensure Ohio stays on the cutting 
edge of smart mobility, technology, standardization, 
infrastructure, and implementation.
    One example that is well underway is our 33 Smart Mobility 
Corridor, a 35-mile stretch of U.S.3 northwest of Columbus, 
which is being equipped with some of the highest concentrations 
of connected vehicle infrastructure in the country. Working 
with a collaborative team of local governments, along with the 
Transportation Research Center, Honda, Bosch, Michael Baker 
International, and others, we are equipping the four-lane 
divided highway with fiberoptic cable and wireless roadside 
sensors.
    Midway along this corridor we are working with local 
officials in Honda on a project to install dedicated short-
range communication units in every traffic signal in the city 
of Marysville. When fully operational, connected signals will 
communicate with as many as 1,500 public and private vehicles 
we will be equipping with onboard units. This will provide the 
largest concentration of connected vehicles and infrastructure 
in the country.
    The Marysville and U.S. 33 Smart Mobility Corridor projects 
are each funded in part through a U.S. Department of 
Transportation grant.
    In another public-private partnership, DriveOhio and the 
Ohio Department of Transportation are working with the city of 
Columbus, the Columbus Partnership, and The Ohio State 
University to soon deploy a low-speed, self-driving passenger 
shuttle service around the downtown area. This is part of a 
three-phase plan to help develop guidelines that will inform 
future developments or deployments of self-driving technology 
in Columbus and throughout the State of Ohio.
    Ohio has a singular advantage in our work to advance these 
technologies: We are home to the Transportation Research 
Center, a 4,500-acre automotive proving ground, the largest and 
most advanced in North America. Now with a $45 million 
investment by the State of Ohio, JobsOhio, and The Ohio State 
University, the Transportation Research Center is building the 
SMARTCenter, the largest automated and connected vehicle 
testing facility in the world, strategically located at one end 
of the U.S. 33 Smart Mobility Corridor.
    By supporting projects like those I have described and 
others sure to follow, DriveOhio is committed to advancing 
smart mobility solutions and innovation that will benefit 
transportation safety, efficiency, and economic impact, not 
only in Ohio, but throughout this entire great Nation.
    Thank you for letting me share the Ohio story. I have 
provided additional details in my written testimony, and I will 
be happy to answer any questions the committee might have.
    [Mr. Barna's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Jim Barna, Executive Director of DriveOhio, Ohio 
                      Department of Transportation
    Chairman Graves, Ranking Member Norton, and Members of the 
Subcommittee: My name is Jim Barna. I serve as the Executive Director 
of DriveOhio. I'm pleased to appear here today on behalf of Governor 
John Kasich and Ohio Director of Transportation Jerry Wray to talk with 
you about the important ways we are preparing Ohio for the future of 
smart mobility.
    With autonomous and connected vehicles dominating both the 
automotive and infrastructure agendas of governments at every level, 
here and across the globe, DriveOhio was created by Governor Kasich as 
a one-stop shop for those looking to safely develop, test and deploy 
advanced mobility solutions in Ohio. We are establishing Ohio's 
leadership in this realm by providing a single point of contact and 
collaboration for the dozens of public and private entities in our 
State that are involved in the design, development, testing, use and 
regulation of autonomous and connected technologies--as well as as 
those responsible for the public policies and infrastructure needed by 
those technologies.
    As the State's center for smart mobility, DriveOhio brings these 
agencies and organizations under one umbrella, serving as the single 
point of contact for all of Ohio's smart mobility initiatives and 
advancements. DriveOhio fosters cooperation, innovation and 
collaboration, offers faster access to resources by breaking down 
government barriers, and improves efficiencies for people and 
organizations that want to be part of this industry. Our work is guided 
by four fundamental pillars: Transportation Safety--which is first and 
foremost--Reliability, Mobility and Workforce. We have nearly a dozen 
smart mobility projects either under construction or soon to be 
announced--projects aimed at testing advanced transportation 
technologies in a variety real-life smart mobility applications 
including improved access to work, education, healthcare and the 
essentials of a healthy, productive life.
    One of the biggest things we are learning is the importance of 
using public/private partnerships to achieve our goals. Our public-
sector partners, including nine State agencies and municipalities from 
across the State, are participating in working groups along with the 
automotive industry, academia, and Ohio's world-class research and 
development institutions. Together, they are working to ensure Ohio 
stays on the cutting edge of smart mobility technology, 
standardization, infrastructure and implementation.
    One example I can point to, which is well underway, is our 33 Smart 
Mobility Corridor, a 35-mile stretch of U.S. 33 northwest of Columbus, 
which is being equipped with some of the highest concentrations of 
connected vehicle infrastructure in the country. Working with a 
collaborative team of local governments along the corridor that is 
overseeing the project, along with the Transportation Research Center, 
Honda, Bosch, Michael Baker International and others, we are equipping 
the four-lane, divided highway with fiber-optic cable and wireless 
roadside sensors.
    Midway along this corridor, we are working with local officials and 
Honda on a project to install dedicated short-range communication units 
in every traffic signal in the city of Marysville. When fully 
operational, these connected signals will communicate with as many as 
1,500 public and private vehicles we will be equipping with onboard 
units. This project will provide the largest concentration of connected 
vehicles and infrastructure in the country, with a saturation rate of 
daily traffic in the area reaching between 10 and 20 percent.
    The 33 Smart Mobility Corridor and Marysville projects are funded 
in part through a U.S. Department of Transportation ATCMTD grant. This 
project was selected for the grant because it was the only 
demonstration project involving a rural-to-suburban-to-urban 
application of this technology. And it has been recognized as advancing 
more rapidly and more successfully than others that were awarded.
    Ohio has a singular advantage in our work to advance these 
technologies, as we are home to the Transportation Research Center, a 
4,500-acre automotive proving ground--the largest and most advanced in 
North America. It's strategically located at one end of the 33 Smart 
Mobility Corridor. Now, with a $45 million investment by the State of 
Ohio, JobsOhio, and The Ohio State University, the Transportation 
Research Center is building the SMARTCenter, the largest automated and 
connected vehicle testing facility in the world. Automakers and systems 
developers recognize the value in SMARTCenter's capabilities and are 
already buying ``track time'' reservations before construction is even 
completed.
    Another project ramping up along the 33 Smart Mobility Corridor 
will gather vehicle data and monitor traffic from the air. We will soon 
be using unmanned aircraft that will interact with sensors and 
communication equipment along the corridor, feeding data into our 
Traffic Management Center in Columbus. The project will also use 
sensors and communication devices to ensure the unmanned aircraft will 
not interfere with one another or with manned aircraft, such as small 
planes and helicopters, which also use the lower altitude airspace.
    We are also identifying innovative financing opportunities to 
support this research.
    In another public/private partnership, DriveOhio and the Ohio 
Department of Transportation are working with the city of Columbus, the 
Columbus Partnership and The Ohio State University to soon deploy a 
low-speed, self-driving passenger shuttle service around city's 
downtown area with free rides for passengers during the first year. 
This pilot is the first step in a three-phase plan for Smart Columbus 
that will help develop guidelines that will inform future deployments 
of self-driving technology in Columbus and throughout Ohio.
    To truly maximize our investments in this area, we need the ability 
to connect local and regional projects under a cohesive Statewide 
framework. DriveOhio has begun work on a Smart Mobility plan to guide 
our future investments in connected and automated vehicle technology. 
The purpose of the project is to provide equipment and application 
specifications for smart mobility technologies that could be used by 
State and local governments. We are also looking at a master plan for 
Statewide data storage, management and security for connected and 
autonomous vehicles.
    By supporting projects like those I've described and others sure to 
follow, DriveOhio is committed to advancing smart mobility solutions 
and innovation that will benefit transportation safety, efficiency and 
economic impact not only in Ohio, but throughout the entire nation.
    Thank you for your time and for letting me share the Ohio's smart 
mobility story. I will be happy to answer any questions the committee 
might have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Graves of Missouri. Thank you.
    Ms. Castillo.
    Ms. Castillo. Mr. Chairman, Ranking Member Norton, and 
members of the subcommittee, my name is Julia Castillo, and I 
am the executive director of HIRTA, the Heart of Iowa Regional 
Transit Agency, better known as HIRTA, and I have been there 
for 8 years. It is with great appreciation and honor to be 
selected on behalf of the Community Transportation Association 
of America and its members to appear before you today regarding 
innovations in public transportation.
    HIRTA's service area is a seven-county, 4,200-square-mile 
region, with a population of 321,000. We provide approximately 
300,000 trips per year traveling over 1.3 million miles with a 
95-percent on-time rate. All of this can be a challenging task, 
for Iowa has the second oldest fleet of public transportation 
vehicles in the United States. In our community, HIRTA is the 
safest way to go with our 87 drivers having traveled 218,000 
miles since our last preventable incident.
    Innovations in rural transit look different than in our 
urban transit, but the goals--more efficient service to more 
people--they are the same. Staffing resources of rural transit 
systems like mine are far more limited than in urban 
communities. For rural transit, the most obvious path to 
innovation is through vehicles.
    We have a fleet of 84 fully accessible vehicles which range 
from 2-passenger to 18-passenger capacity. Rural transit 
systems like mine perform at our best when we are able to 
effectively group trips and right-size our fleet to customer 
demand. Our service can't be a one-size-fits-all. Different 
size vehicles allow us to be more responsive and flexible.
    Thanks to Congress' leadership and increasing dedicated bus 
capital, the transit industry is making headway in reducing the 
national bus capital backlog. To build on that investment we 
must explore practical applications such as autonomous 
vehicles.
    Some small urban transit providers, such as my fellow CTAA 
member StarTran in Lincoln, Nebraska, have been testing 
autonomous vehicles in limited applications to determine their 
effectiveness. Both small urban and rural transit providers 
will need technical assistance and peer examples to embrace and 
implement these new technologies while Federal legislation on 
autonomous vehicles needs careful consideration by Congress to 
ensure these vehicles are accessible, safe, convenient, and 
affordable for all Americans.
    At the same time, there have been innovations in technology 
that rural transit providers across the country have been 
utilizing for more than a decade. Our Routematch centralized 
scheduling and dispatch software allows us to make realtime 
decisions about serving our customers across a wide geographic 
area.
    HIRTA NOW was started because there was a need for same-day 
service where people don't have to reserve their trip 24 hours 
in advance. They can call anytime we are open and we pick them 
up and take them where they need to go. Rural and specialized 
transportation providers such as OATS in Missouri, which serves 
your district, Mr. Chairman, and Suburban Transit Network in 
Montgomery County, Pennsylvania, have also developed efficient, 
same-day, and on-demand service, which is an important 
innovation in rural areas.
    People don't live in advance. Sometimes things happen and 
people need a ride now, not tomorrow. And since most rural 
areas do not have Ubers, Lyfts, or even taxis, HIRTA decided we 
could provide the same type of service, so we have become the 
Uber in our area.
    Our newest and most exciting project which launched last 
month is a smartphone app and online payment option known as 
Amble. This allows our riders to manage their own trips, 
including scheduling, canceling, and payment. Combined 
technologies like Amble are what smaller communities and public 
transit providers like mine are striving to implement. In 
Norwalk, Connecticut, the CTAA member Norwalk Transit District 
is set to launch an on-demand ride-sharing service known as 
Wheels to You that will utilize a similar scheduling and fare 
payment app.
    Additionally, in 2017, we developed a 10-year strategic 
plan crafted with elected officials, private partners, customer 
groups, and more. And as a result, we are now working on 
deploying new innovations such as HIRTAworks, which is a van 
pool service for commuters, getting them into factories and 
large employers in our most rural areas; HIRTAJoblink, which is 
going to be a commuter shuttle getting employees to jobs in our 
rural areas, and we have been working with job service programs 
and employers as well as local officials to make this happen; 
deviated route service in the city of Newton. CTAA members have 
launched similar deviated routes recently in small towns like 
Georgetown, Kentucky, and Biddeford, Maine.
    An important innovation for all forms of public 
transportation is better understanding of the outcomes that our 
services create: healthcare outcomes, employment, independence, 
and education. Using data we must demonstrate how our services 
benefit entire communities, even for those who never ride 
public transit. Failure to do this creates challenges.
    For example, many of my peers are innovating with non-
emergency medical transportation to diversify their funding 
sources and provide more efficient services to healthcare 
destinations. CTAA member in Flint, Michigan, the Flint MTA, 
has developed a fleet of sedans and minivans to serve non-
emergency medical trips within 30 minutes through its Ride to 
Wellness program. Since its launch in September of 2016, it has 
grown from transporting 160 people a month to more than 1,000 
per day.
    In closing, our responsibility as rural transit systems is 
to stay in the know, keep up with industry standards, look for 
and secure additional funding, determine what technology makes 
sense to enhance the customer's experience and allow staff to 
operate more efficiently. We all know the community and public 
transportation industry is changing. The vehicles and 
technology we use may evolve; however, people will always need 
to get somewhere.
    I look forward to answering any questions you think of, and 
thank you for the opportunity to testify before you on behalf 
of HIRTA and CTAA.
    [Ms. Castillo's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Julia Castillo, Executive Director, Heart of Iowa 
      Regional Transit Agency (HIRTA), on behalf of the Community 
                 Transportation Association of America
    Mr. Chairman, Ranking Member Holmes-Norton and Members of the 
Subcommittee:
    My name is Julia Castillo and I have been the Executive Director of 
the Heart of Iowa Regional Transit Agency, better known as HIRTA, for 8 
years. I also serve on the National Rural Transit Assistance Program 
Review Board and as Treasurer on the Iowa Public Transit Association 
Board.
    As the Executive Director of a rural transit system, it is with 
great appreciation and honor to be selected, on behalf of the Community 
Transportation Association of America, to appear before you today 
regarding innovations in public transportation in rural communities.
    The State of Iowa has 35 community and public transportation 
systems serving all 99 counties. We have 16 rural and 19 urban transit 
providers, which are the only entities eligible to receive public 
transit investment administered by the Iowa DOT Office of Public 
Transit (OPT). The Iowa DOT issued TransPlan 77 further defining the 
concept of regional transit systems as being multicounty regions based 
on the Governor's sub-State planning regions, which is an innovative 
approach to public transit dating back to 1977. HIRTA is the designated 
public transit system for region 11, responsible for serving the 
counties of Boone, Dallas, Jasper, Madison, Marion, Story and Warren. 
Our service area is unique in that we are the only regional transit 
system in Iowa serving a circle around the Des Moines metropolitan 
area. Our service area ranges from our smallest county spanning 554 
square miles to our largest covering 730 square miles, and populations 
from 16,013 to 97,502 with a some counties slightly declining in 
population while others grow. Unlike urban areas, when rural population 
decreases, the need for mobility grows, due to increased isolation.
    Our agency was established in 1981, and when I became the Executive 
Director in 2010, there was only two of us employed at HIRTA. 
Historically, we had contracted our transit services with local non-
profit agencies, working with a contractor in each county we serve. Our 
Board is comprised of one county supervisor from each of the counties 
we serve, and our 2010 Board election brought major changes in 
leadership. In 2011, just 6 months into my position, five of seven 
board members were new to HIRTA. I recognized the great opportunity to 
begin initiating change. By October 2011, HIRTA began operating service 
directly in Jasper County, and hired drivers for the first time. In 
2012, we were the first transit system in central Iowa to hire a 
Mobility Manager, and added direct service in Story county. Today, we 
only contract in two of our seven counties, and we have more than 90 
employees. None of this growth would have been possible if not for a 
Board of Directors who made the decision to invest in the future of 
HIRTA, and allowed us to grow and implement innovative programs, 
technology, and approaches to making us the transportation option of 
choice in our region.
    HIRTA has a fleet of 84 fully accessible vehicles, which includes 
18-, 16-, and 12-passenger buses, as well as minivans and MV1's, which 
serve two-to-four people. Our newest additions are ProMasters, which 
can transport up to nine people. We provide approximately 300,000 trips 
per year, traveling over 1.3 million miles, which can be a challenging 
task as Iowa has the second oldest fleet of public transit vehicles in 
the United States.
    The demographics we service are as varied as the places we go: 60 
percent are people with disabilities (including those 60 and older); 13 
percent are seniors and 27 percent is general public, which includes 
Head Start, preschool, K-12 school riders and anyone under age 60. We 
provide both long-distance and in-town services, which are broken out 
as 33 percent program services; 12 percent medical and hospital 
releases; 11 percent employment; 8 percent education; 4 percent 
congregate meal programs, adult daycare and shopping trips, and 27 
percent for other reasons. HIRTA also stands on its safety record, with 
our 87 drivers having provided more than 41,000 trips, traveled 218,000 
miles and worked 14,000 since our last preventable incident.
    As with many rural transit systems, we have a limited number of 
staff, and most wear many hats, covering a variety of tasks and skills. 
It is a challenge to plan for the future, when we are just trying to 
get through the daily tasks of ensuring safe, on-time and reliable 
service. We focus on keeping customers happy, while working within the 
rules and regulations encompassing public transportation. It can be 
challenging to dedicate time and staff to thinking about the future, 
with a variety of new programs, services, technology and innovations to 
consider. However, I believe it is imperative for rural transit systems 
to plan, educate and invest in our future, or we will fall even further 
behind our urban counterparts. People who live in more rural areas need 
the same types of services as those in urban areas and even though it 
may be more challenging and sometimes more expensive, we need to find 
ways in which to efficiently meet those needs so their independence, 
freedom, quality of life and ability to grow and prosper where they 
live is not compromised. This is where innovation and technology come 
together to play a vital role.
    We also need to be aware of how our industry is changing based on 
economics, technology, education and other factors. Those in their 80's 
and 90's are using smart technology and social media more than ever 
before. Rural America must realize our demographics resemble a collage 
of people from all different walks of life, ages, ethnicities and 
abilities, and they require a variety of ways to receive information 
and services. Status quo is no longer good enough and those who don't 
continue to plan and advance, will see their services decline, which 
will have a negative impact, not only on those we serve, but the 
communities as a whole. Innovations in rural transit systems may look 
different, and may not even appear from first glance to be innovative. 
However, staff and funding is very different and much smaller than 
urban communities. Our innovative success may be smaller, and not as 
glamorous, but they should not go unnoticed, because to those we serve 
and those who work to in rural transit, they are significant.
    As we began the process of looking at where we were in 2011, and 
were we needed to be, I pulled a small team together, and began to look 
at what we do well, what we could do better and what resources and 
products are available for us to improve. The State of Iowa wanted to 
partially fund Mobility Management positions in 2012, so we hopped on 
board, secured funding, and were on our way to growing and being 
innovative in how we interacted and secured partnerships with community 
agencies and businesses. We developed a Transportation Advisory Group 
(TAG) in each of our counties, and began discussing transit 
improvements and unmet needs. Through this process we created a 
partnership with Goodwill Career Connections, secured a State Transit 
Assistance (STA) grant from the Iowa Department of Transportation, 
Office of Public Transit, and began the Employment Initiative which 
allowed us to provide free rides to and from work for 30 days to anyone 
reentering the workforce in Jasper county. We then expanded the 
initiative into Warren county the following year. Our Mobility 
Coordinator created a travel training program and cultivated 
partnerships allowing us to provide free trips to farmers' markets and 
food pantries, as part of the Hunger Collation, helping to improve 
access to healthy food and reduce food deserts. Other collaborations 
emerged with the Veterans Administration, Legal Aid, ESL classes and 
IMPACT (which manages programs like Low Income Home Energy Assistance 
Program).
    It is great to live in a multimodal society, which means having 
great transportation options. In rural areas, those options are 
generally fewer, and sometimes non-existent. HIRTA Now was started 
because there was a need for same-day service, where people don't have 
to reserve their trip 24 hours in advance. They can call any time of 
the day and we will pick them up and take them where they need to go. 
It is more efficient and easier with advanced notice for transit 
providers, however, people don't live in advance. Sometimes things 
happen, and people need a ride now--not tomorrow--and since most rural 
areas do not have Uber or Lyft, or even taxis, HIRTA decided we could 
provide this type of service, and cater to more people because our 
small vehicles all have ramps, so we could also serve those who use 
mobility devices.
    We also began to look at how we connected with people outside the 
vehicle, and those who didn't use our service. Our first step into 
social media was to develop a more user-friendly website. We kept it 
simple and yet informative, with pictures and up-to-date news about 
what is happening at HIRTA. We currently average over 2,000 unique 
visitors per week. Then we branched into the world of Facebook, where 
we focus on our customers and what is of interest to them. We have 
continued to grow this part of our social media, averaging 11,300 
reaches per month. We actively use Twitter too, however, this form of 
social media is directed more toward agencies, government, businesses 
and individuals interested in rural transit as a whole. Daily service 
announcements are rare, but tweets about our value to the community, 
the economy, funding or benefits of transit are the main focus. On 
Twitter, we average over 11,000 impressions a month. Most recently we 
began using Instagram as a platform to showcase our outreach and 
marketing efforts. Some may say social media is not very innovative. 
However, it is not common for rural transit systems to have a website, 
Facebook, Twitter or Instagram account, and the rational is often ``the 
majority of the people we serve, aren't on those platforms''. That line 
of thinking is getting further and further from the reality of how 
people receive information today.
    Our Operations team conveyed ways we could enhance service to our 
customers and streamline it for our staff. Over the past 5 years, we 
have invested in and secured additional funds to implement the 
following, innovative solutions:
    <bullet>  Notification Module, which automatically calls people at 
a specified time to remind them of their upcoming trip, reducing costly 
and inefficient no-shows;
    <bullet>  Maintenance Module, which allows HIRTA staff to 
proactively track and manage maintenance on all of our vehicles through 
real-time updates, and notifications when a vehicle experiences a 
problem while en-route;
    <bullet>  Audio and Video Surveillance cameras in all vehicles, not 
only ensuring greater safety and providing examples for improved driver 
training, but also reducing our insurance expenses by recording our 
drivers' actions during accidents;
    <bullet>  Centralized Scheduling and Dispatch, which offers 
improved efficiency along with continuity in our operating procedures 
and customer service;
    <bullet>  Tablets for drivers, replacing paper manifests, which are 
more efficient, economical and sustainable;
    <bullet>  Electronic pre/post-trips have replaced paper forms; and
    <bullet>  Dedicated one staff person to be responsible for safety 
and training. We have invested in a demand-response training program, 
and various other trainings, such and Drug and Alcohol awareness. All 
drivers are now required to go through these training programs, pass a 
written test and undertake behind-the-wheel training. If someone 
doesn't pass, they have to take the training again before they are 
allowed to drive.
    Our newest and most expensive project, which launched last month, 
is a smartphone app and online payment option known as Amble. We are 
the only rural transit system in the U.S. that has implemented both of 
these options at the same time, and only one of three using the online 
payment feature. We are committed to bringing in technology for use 
across all of our customer demographics. Before launching, we did a 
trial run for 4 months using eight people, from all walks of life, 
ages, disabilities and genders. Each of them consistently used the app 
to better their transit experience. They managed their own trips, 
including scheduling, canceling and reviewing. It is very important we 
not limit people by any preconceived biases, so we offer options to 
ensure those we serve have choices for what best fits into their life. 
We are also focused on safety, and therefore it was important to have a 
secure way of paying without cash or tickets.
    Do rural transit systems take time for strategic planning? HIRTA 
had not undertaken one in 36 years. It may not sound innovative, 
however, I am a firm believer if we don't know what our goals are, we 
will never know if we are reaching them. In 2017 we developed a 10-year 
working strategic plan, so we would work toward goals such as achieving 
outstanding customer experiences, ensuring our safety culture, 
maintaining organizational viability and improved connectivity. I even 
changed my monthly Executive Director report to the HIRTA board, which 
lists our ten goals and everything reported falls into one of those 
categories. It helps keep me on track and updates the board on the 
living and working plan.
    We are now developing and anticipate implementing the following 
innovations this fiscal year:
    <bullet>  HIRTAworks, a vanpool service for commuters, getting them 
to the factories and large employers in our most rural areas.
    <bullet>  HIRTAJoblink, a commuter shuttle getting employees to 
jobs in our rural areas. We've been working with refugee service 
programs, and also have employers as well as city and county officials 
working together to make this happen. This is an economic need and 
stakeholders see the impact it will make in their communities.
    <bullet>  Our first deviated fixed-route in the city of Newton, 
which is highly supported by the City and the county's TAG. Deviated 
fixed-route service is a hybrid option that allows us to run a 
conventional fixed-route bus line, but deviate off the route for up to 
\3/4\ of a mile to provide door-to-door service for eligible 
passengers, avoiding the cost of creating a complimentary paratransit 
operation to serve people with disabilities along the route.
    Providing rural transit is different than providing transit in 
urban areas. Both have challenges and barriers, some the same, but 
several are unique to operating in large geographic areas with much 
less population density. One challenge is having a facility conducive 
to housing the operations, and more importantly, the vehicles and 
maintenance. Many rural agencies, like HIRTA, operate out of various 
leased buildings or office spaces, with no indoor storage for vehicles. 
Some smaller agencies actually have drivers take the bus and park it at 
their private home for the night. Having vehicles sit out in the 
elements, whether it be excessive heat, rain, hail, or extreme cold and 
snow, ages the vehicles' exteriors and interiors. The excessive wear 
shortens the life of the vehicle, as well as, increases failures and 
repair costs. Whatever capital resources we have available we devote to 
our vehicle fleet to maintain our service levels. A new, centralized 
facility hasn't been possible with our budgetary constraints. The end 
result is vehicles which do not look aesthetically pleasing and reduce 
the public perception and image of public transit. To a customer, rusty 
vehicles equate to old and unsafe. For the transit system, this means 
money, which could be used to maintain or enhance services, goes into 
maintenance. This is one undeniable contrast in public transit 
infrastructure between urban and rural communities.
    Rural systems in Iowa have historically provided, not only Non-
Emergency Medical Transportation (NEMT), but also trips supported by 
Medicaid waivers through Iowa's Medicaid program. Over the past 2 
years, the State has hired Managed Care Organizations (MCOs) to handle 
both types of transportation. Late last year, with less than 30 days of 
notice, we were told the MCO's would no longer pay for Supported 
Community Living (SCL) transportation, and that SCL facilities would be 
responsible to pay for transit services. Many of them could not afford 
to pay, so in 6 months, HIRTA took a loss of $900,000. We were simply 
not given enough notice to prepare for how the change would affect our 
bottom-line. Fortunately, we had already been working on new types of 
services to implement, so what we have lost in Medicaid funding, we 
hope to be able to partially recoup by implementing new services. But, 
to be clear, if rural transit agencies can no longer access Medicaid-
supported contract trips as allowable matching funds for Federal 
Section 5311 rural transportation programs, millions of dollars of 
Section 5311 funds could be left on the table due to lacking matching 
funds.
    Iowa's rural systems have the second-oldest fleet of vehicles in 
the United States, so we--unfortunately--spend a large portion of our 
operating funds on maintenance. Vehicle repairs are necessary in order 
to meet the needs of our customers. It is not unusual for us to operate 
ten-plus year-old, light-duty buses with over 300,000 miles on them. 
The useful life of a light-duty bus, as defined by FTA is 4 years. We 
have discussed purchasing more fuel-efficient vehicles, or even 
autonomous vehicle, and what it would look like for our rural 
communities.
    Even though we are intrigued and curious about how we could 
implement these types of vehicles, the immediate barriers are 
purchasing cost and maintenance of the vehicles. Paying a 20 percent 
local match on new vehicles requires planning, saving and/or applying 
for grants. For vehicles with increased price tags, it would take even 
longer to secure additional funding. Also we do not have a transit 
facility, which means we don't have a maintenance facility. We work 
with local private garages and mechanics. Additional barriers would 
include ensuring a local maintenance vendor has the expertise to work 
on these new types of vehicles. Rural transit providers like ours need 
technical assistance and peer examples to embrace and implement these 
new technologies, while Federal legislation on autonomous vehicles 
needs careful consideration by Congress to ensure these vehicles are 
accessible, safe, convenient and affordable for all Americans in 
communities large and small.
    Another stark difference is with staffing, whether drivers or 
office staff. Rural systems--which typically transport a large number 
of people with mobility devices, and provide door-to-door services--are 
often unable to pay their drivers a living wage. The majority of 
drivers we employ are part-time retirees who are 65 or older. Rural 
areas have qualified people we could hire, who could grow with our 
agencies, if we could afford to pay them a living wage and offer full-
time employment with benefits. The reality is, current levels of 
Federal and State funding for rural systems are not enough to allow us 
to hire full-time drivers, and in many cases, do not allow us to hire 
enough staff to handle all the duties of running a transit system. It 
is not unusual for administrative staff to also hop in a bus and pick 
people up as a driver, or schedule and dispatch will-call trips. It is 
highly unlikely this would happen in New York, Chicago or even in a 
smaller city, like Des Moines.
    In closing, our responsibility as rural transit systems is to stay 
in the know, keep up with industry standards, look for and secure 
additional funding sources, determine what technology makes sense to 
enhance the customer experience and allow staff to operate most 
efficiently. We set goals, take chances and most importantly, through 
it all, develop partnerships, communicate, collect feedback and never 
give-up. We all know community and public transportation industry is 
changing. The vehicles and technology we use may evolve, however, 
people will always need to get somewhere. Rural transit systems need to 
rise to the occasion and be innovative and forward-thinking to best 
serve the people in our communities. However, there are costs, and we 
need sustainable public funding to help us innovate. We are not asking 
for a gold-star transit facility that would look great to tourist or 
business professionals. We are simply asking for a fair and equitable 
share of funding so that those who choose to live more remotely can 
have access to services, vehicles and facilities that suit their way of 
living, as much as urban transit providers try to meet the needs of 
those in cities.
    HIRTA will continue working to remain on the forefront and keep up 
with what is happening in the communities we serve. We will also follow 
what is happening in urban areas too, because people, no matter where 
they live, deserve to have the safest, most affordable and reliable 
public transit service available.

    Mr. Graves of Missouri. Thank you.
    Mr. Bhatt.
    Mr. Bhatt. Thank you, Chairman Graves and Ranking Member 
Norton, for the opportunity to testify today.
    Over the past 15 years, I have been appointed by three 
Governors and one President to be a leader in transportation 
across the country, and in that 15 years, we have seen amazing 
changes in technology, and I believe we are just on the leading 
edge of that. And it represents the best tool in our toolbox, I 
believe, to save lives and improve the quality of life for 
Americans as we move forward.
    I have picked five from our members across the country. We 
are actually going to submit a report later this year based on 
this hearing, but we could literally have picked a project in 
all of your districts because that is how widespread across the 
country these deployments are.
    So we will start with Colorado, where I was the director of 
the Colorado Department of Transportation. When I was there, 
people would say, why is traffic so bad in Colorado? And I 
would say it is because we have a transportation system that 
was designed in the 1950s, built in the 1960s for a population 
of the 1980s. Colorado has doubled that, and we are still 
existing on that same infrastructure.
    So we created our RoadX program, and one of the projects 
that we had come out of there was what we called SMART 25. So 
this is a deployment that is going to go live next year. We 
actually stole this idea from Melbourne, Australia. And 
basically what it is, it is intelligent ramp metering.
    And so you have ramp meters that know the storage capacity 
on the ramps. It knows the speed of the traffic on the highway. 
And when that speed starts to break down, it stops letting 
people onto the highway, so you never lose the maximum capacity 
of the highway. When they deployed this in Melbourne, they saw 
a 35- to 60-percent improvement in average speed and a 
reduction in congestion.
    Australians follow traffic laws a little bit better than 
Americans, so we think that they might see a 20-percent 
improvement. But that is the equivalent of adding a lane on I-
25 in that 18-mile stretch. And in 20 years, we think that that 
will save about 500,000 hours of passenger vehicle time and 
about 50,000 hours of freight, because this is an important 
corridor both for the Denver metro area and to move freight 
from Texas up to the Canadian border.
    So moving from Colorado to Florida and staying with this 
theme of freight, so safety is a huge issue when it comes to 
freight. We always talk about making sure that we don't have 
drivers that are too tired. One of the challenges for truck 
drivers is when they leave in the morning, they are not sure 
where they are going to spend the night because they don't know 
where they can park because truck parking is a huge challenge 
for us. It creates huge environmental issues.
    So TPAS is the program that Florida has released. Iowa is 
doing this as well, lots of other States. But, basically, this 
uses microwave detection and the existing rest stops and weigh 
stations so that we can broadcast into the cab so that the 
truck drivers know at the beginning of their journey where they 
can spend the night so they are not wasting time or fuel trying 
to find a place to park. Also during inclement weather, whether 
it is snowstorms or hurricanes, it is important to help move 
people quickly, and we are glad that Florida is leading in this 
space.
    Moving from Florida to Michigan, I actually drove on this 
corridor, the U.S.-23 Flex Route this weekend. My wife is from 
Michigan. And they are doing some amazing things with active 
traffic management, maximizing throughput using lanes as they 
go through, using CCTV and traffic counts so that they know 
when the traffic begins to break down.
    And because of this system they have seen a 57-percent 
improvement in planning time. Planning time is the time where 
you think the trip should take this amount of time, so we have 
seen almost a 60-percent improvement in that travel time and a 
32-percent improvement in peak hour travel through that 
corridor.
    Moving from Michigan to San Francisco, across the bay from 
Mr. Iwasaki. Metropolitan Transportation Commission, one of our 
members, sent forward the Bay Bridge Forward initiative. This 
is a bridge that moves about 300,000 vehicles a day. All kinds 
of different modes are involved. So there is transit, there is 
ferries. Active transportation is important here. And it is--
one important aspect here is letting people know where there is 
parking available through ITS as they move forward so they are 
not wasting time and energy. This is a very exciting project 
for this entire region.
    And then our last project that we have is in Nevada with 
the Regional Transportation Commission of Southern Nevada. 
There are autonomous shuttles, you know, popping up all over 
the place. University of Michigan I know has one. This is 
exciting in Nevada where they are using automated transit, and 
this is deploying automated transit to help fix the first-mile/
last-mile challenge. This is live. It provides a test bed for 
integrated autonomous vehicle deployment, and you are seeing 
this across the country from Las Vegas to Lincoln, Nebraska.
    So in closing, I would say thank you for the opportunity to 
testify. We will provide the report when we are done, and happy 
to answer any questions that you may have. Thank you very much.
    [An abbreviated version of Mr. Bhatt's 78-page prepared 
statement follows. It is available in its entirety at the ITS 
America website as indicated at the end of this statement:]

                                 <F-dash>
 Prepared Statement of Shailen P. Bhatt, President and Chief Executive 
  Officer, Intelligent Transportation Society of America (ITS America)
    Chairman Graves, Ranking Member Holmes Norton, and Members of the 
Subcommittee, thank you for the opportunity to provide the Intelligent 
Transportation Society of America's (ITS America) perspective on 
``Innovation in Surface Transportation.''
    I am pleased to be joined on this panel by ITS America member 
Contra Costa Transportation Authority Executive Director Randell 
Iwasaki.
    We applaud the Subcommittee on Highways and Transit for its 
interest in how intelligent transportation technologies are solving 
many of our nation's transportation safety, mobility, and 
infrastructure challenges. We also commend the Subcommittee for its 
leadership, which made deployment of intelligent transportation 
technologies an eligible activity in the Fixing America's Surface 
Transportation Act (FAST Act).
    With FAST Act funding, commitments from State and local 
governments, innovative partnerships with the private sector and 
research institutions, we see firsthand how deployment of intelligent 
transportation technologies are saving lives; reducing crashes; 
extending the life of transportation infrastructure; improving 
capacity; reducing the rate and growth in congestion; moving more 
people in fewer vehicles; improving travel times; and reducing 
greenhouse gas emissions.
a better future transformed by intelligent transportation technologies: 
                              introduction
    My name is Shailen P. Bhatt, and I am the President and CEO of ITS 
America. Before joining ITS America in January, I served as Executive 
Director for the Colorado Department of Transportation (CDOT). In that 
role, I oversaw the launch of the RoadX program, which is focused on 
deploying innovative technology solutions--including connected 
vehicles--and teaming with the private sector to shape the future of 
transportation. While at CDOT, I also served as the national Chair of 
the Vehicle-to-Infrastructure Deployment Coalition and the Chair of the 
National Operations Center of Excellence. Before CDOT, I served as 
Cabinet Secretary with the Delaware Department of Transportation and 
Deputy Executive Director of the Kentucky Transportation Cabinet. I 
also had the pleasure of serving as Associate Administrator at the 
Federal Highway Administration under U.S. Department of Transportation 
Secretary Ray H. LaHood.
    It is an honor to testify on behalf of ITS America and our members 
who have been researching, developing, testing or deploying intelligent 
transportation technologies. Founded as an official advisory board on 
road technology to the U.S. Department of Transportation, ITS America 
represents State and city departments of transportation, metropolitan 
planning organizations, automotive manufacturers, technology companies, 
engineering firms, automotive suppliers, insurance companies, and 
research and academic institutions. Our Board Chair is Carlos Braceras, 
Executive Director of the Utah Department of Transportation, and our 
Vice-Chair is Gary Smyth, Executive Director Global Research and 
Development Laboratories at General Motors.\1\ These members come to 
one table--ITS America--to shape the next generation of transportation 
and infrastructure driven by intelligent mobility.
---------------------------------------------------------------------------
    \1\ The ITS America Board of Directors includes AAA, Arizona 
Department of Transportation, California Partners for Advanced 
Transportation Technology at University of California Berkeley, 
California Department of Transportation, Conduent, Cubic, Delaware 
Department of Transportation, Econolite, General Motors, GRIDSMART, 
HELP Inc., Iteris, Kapsch TrafficCom North America, Metropolitan 
Transportation Commission, Michael Baker International, National 
Renewable Energy Laboratory, New York City Department of 
Transportation, Pennsylvania Department of Transportation, Qualcomm, 
Serco, Southwest Research Institute, State Farm Insurance, Texas A&M 
Transportation Institute, Toyota, Utah Department of Transportation, 
and Virginia Tech Transportation Institute.
---------------------------------------------------------------------------
    ITS America is united around a shared vision of a better future 
transformed by intelligent mobility that is safer, greener, and 
smarter. Our mission is to advance the research and deployment of 
intelligent transportation technologies to save lives, improve 
mobility, promote sustainability, and increase efficiency and 
productivity. For nearly 30 years, ITS America has been educating 
policy and decisionmakers at every level of government and in the 
private sector on policy that supports intelligent transportation 
technologies. Our focus is policy that accelerates deployment of 
connected and automated vehicle technology and smart infrastructure; 
breathes new life into our transportation infrastructure by expanding 
investments in technologies that support smart and sustainable States 
and cities; and supports new models and modes of transportation 
including micro-transit, rideshare, carshare, bikeshare, and unmanned 
systems. That said, our first and foremost priority has been, and 
continues to be, safety.
a better future transformed by intelligent transportation technologies: 
                      next generation of mobility
    Today's hearing takes place at an important time. Just as 
infrastructure was critical to the development of our economy in the 
20th century, maintenance of existing infrastructure and deployment of 
smart infrastructure will be critical for our global competitiveness in 
this century. Advances in robotics, artificial intelligence, and 
wireless communications have inspired a race to make the next 
generation of mobility a reality.
    We are entering a technology revolution that will define the way 
people, goods, services, and information move in the 21st century. It 
is a whirlwind of innovation that will change entire industries as well 
as transform communities large and small as well as urban and rural. It 
is a new transportation era as dramatic as the period when the car 
supplanted the horse and buggy. This transformation can positively 
affect both the safety and operations of our transportation system.
a better future transformed by intelligent transportation technologies: 
                        safer. greener. smarter
    According to the U.S. Department of Transportation's National 
Highway Traffic Safety Administration (NHTSA), 37,461 people died in 
U.S. road crashes in 2016. This is a 9-year high, and it is an increase 
of 5.6 percent from the 35,485 fatalities in 2015. The 5.6 percent 
increase, following the 2015 increase of 7.2 percent, is the largest 
back-to-back percentage increase in fatalities since the 1963-1965 
reporting period. In addition, there were 6.29 million crashes in 2015, 
which resulted in 2.44 million injuries, which is up from 2.34 million 
in 2014. Another alarming statistic is that pedestrian fatalities rose 
by 9 percent in 2016. Deaths related to reckless behaviors including 
speeding, alcohol impairment, and not wearing seat belts also continued 
to increase. Every day on average in the United States, 100 people lose 
their lives on our roadways.
    As fatalities continue to trend upwards, mobility and environmental 
challenges continue to worsen. According to the 2017 Global Traffic 
Scorecard by ITS America member INRIX, U.S. drivers spent an average of 
41 hours a year in traffic during peak hours, which cost drivers nearly 
$305 billion, an average of $1,445 per driver. Three of the world's top 
five most congested cities are in the United States, with Los Angeles 
(first), New York (tied for second with Moscow) and San Francisco 
(fifth) costing upwards of $2.5 billion. According ITS America member 
Texas Transportation Institute (TTI), congestion produced 56 billion 
pounds of carbon dioxide pollution and contributed to 3.1 billion 
gallons of wasted fuel in 2015.
    Once the envy of the world, our increasingly outmoded roads, 
bridges, transit, freight, and intercity passenger systems are 
struggling to move the nation's technology-driven economy. Our 
transportation infrastructure is the backbone of our nation's economy. 
It is also increasingly overcrowded, in poor condition, and more 
dangerous. The most recent American Society of Civil Engineers Report 
Card gave our infrastructure a D-plus. Highways were ranked a D and 
public transportation a D-minus. Bridges were only slightly better with 
a C-minus. The 2015 U.S. Department of Transportation Conditions and 
Performance Report highlighted that current freight demands are 
straining existing capacity. Forecasts for population growth, freight 
growth, trade volume, and vehicle miles traveled all point to a 
dramatic increase over the next several decades.
    We need a safer, greener, smarter future where lives aren't lost on 
our roads, goods are transported to markets quickly, States and cities 
prioritize investments in technology to enable scare infrastructure 
funds to reach farther and with longer-lasting results, and people get 
back their most precious resource: time.
    Today, we are on the cusp of that future transformed by intelligent 
transportation technologies. The modern world literally turns on the 
boundary of where the tire rubber meets the paved road. For over a 
century, this was the most important interface between the car and the 
infrastructure. For automakers, the objective was always to design 
vehicles that were ``road friendly'' to the greatest extent practical. 
However, with new information and wireless technologies, there is a new 
interface--a digital interface between the car and driver and the road 
infrastructure. This has presented an opportunity for infrastructure 
operators to improve safety, manage traffic, and introduce new models 
and modes of transportation in ways that were previously unknown. By 
applying intelligent transportation technologies to our existing 
infrastructure, we can maximize the efficiency of our system and make 
it more sustainable, accessible, and equitable.
    Connected and automated technology is an example of innovative 
transportation technology that will transform mobility and our 
communities. Connected and automated technologies have the potential to 
expand access to transportation. Older Americans and people with 
disabilities are demographics that are impossible to ignore. According 
to the U.S. census, residents age 65 and over grew from 35.0 million in 
2000, to 49.2 million in 2016, accounting for 12.4 percent and 15.2 
percent of the total population, respectively; and nearly one in five 
people have a disability. They also represent a significant demand for 
transportation services, with explosive growth in travel occurring 
should fully automated vehicles succeed in expanding mobility access. 
We hope to have a future in which people with disabilities have full 
freedom of transportation; older adults have greater independence; and 
people in underserved communities and transit deserts--who are often 
low-income, minority, and immigrant--will have better work 
opportunities, better education, and access to better healthcare.
    Connected vehicle technology has arrived, and automated vehicle 
technology is coming, but this should come as no surprise because we 
have seen technology being added to cars, trucks, and buses since the 
1950's. Cruise control, an early example of vehicle automation, was 
first introduced in the 1958 models of the Chrysler Imperial, New 
Yorker and Windsor. According to NHTSA, vehicle safety technologies 
have been researched, developed, tested, and deployed safely over 
nearly 70 years--including cruise control, anti-lock brakes, electronic 
stability control, blind spot detection, forward collision warning, 
lane departure warning, rearview video systems, automatic emergency 
braking, pedestrian automatic emergency braking, rear cross traffic 
alert, and lane centered assist.
    New transportation technologies are game changers. We now have the 
technical capability to connect vehicles to other vehicles, to the 
infrastructure, and to pedestrians--collectively referred to as 
Vehicle-to-Everything (V2X) communications or Connected Vehicle--via 
the 5.9 GHz spectrum band. Advanced traffic management infrastructure, 
Vehicle-to-Infrastructure (V2I) communications, and Vehicle-to-
Pedestrian (V2P) communications can reduce crashes, smooth traffic 
flow, reduce pollution, and most importantly, save lives.
    NHTSA estimates that safety applications enabled by V2V and V2I 
could eliminate or mitigate the severity of up to 80 percent of non-
impaired crashes, including crashes at intersections or while changing 
lanes. More than 30 States and 45 cities are deploying V2I 
communications that use the DSRC safety spectrum band to enhance 
safety, reduce crashes, and decrease fatalities. V2I deployments 
include expansions of the Safety Pilot Model Deployment in Ann Arbor 
(MI), large Pilot Deployments in New York City (NY), Tampa (FL), and 
Wyoming, and the Smart City Challenge in Columbus (OH).
    Electric vehicle infrastructure will be key to the deployment of 
the next generation of mobility. An increasing number of vehicle 
manufacturers are committing to deploy electric vehicles. ITS America 
believes that electric vehicles represent one of the best ways to 
reduce carbon dioxide pollution and our nation's dependence on oil from 
volatile and unpredictable regions of the world.
    One of my last acts as the head of CDOT was to work across State 
agencies to help implement Governor John Hickenlooper's Executive Order 
D 2017-015, ``Supporting Colorado's Clean Energy Transition.'' The 
executive order directs State agencies to develop a plan to electrify 
Colorado's transportation corridor.
    Despite the recent growth in Colorado's electric vehicle (EV) 
market, including that the first 8 months of 2017 saw EV sales jump 73 
percent over the same period in 2016, we found significant barriers to 
adoption. These barriers included a lack of public charging stations, 
particularly EV fast-charging along major transportation corridors. 
Consumers were apprehensive about the availability of public charging--
including local, community-based charging stations and fast-charging 
stations along Colorado's transportation corridors and the cost of 
building out of an EV fast-charging network that would likely require 
significant public funding due to the high cost of installation. These 
barriers are not unique to Colorado.
    Now, as head of a national association, I hear similar concerns 
from our member States and cities as well as vehicle manufacturers. As 
companies increase their commitment to deploy electric vehicles, ITS 
America calls on Federal, State, and local governments and the private 
sector to build-out the charging infrastructure to support the next 
generation of mobility powered by electricity.
     a better future transformed by intelligent mobility: fast act 
                            reauthorization
    Before I provide a preview of ITS America's intelligent 
transportation technology best practices report, I would be remiss if I 
did not strongly urge Congress and the Administration to identify long-
term and sustainable funding for the Highway Trust Fund to ensure the 
FAST Act is reauthorized before the law expires in 2020. Maintaining 
our infrastructure is vital. Funding for ongoing intelligent 
transportation research also is important. This kind of research 
requires funding. Changes are happening today that will fundamentally 
affect how people interact with transportation in the months and years 
ahead. ITS America is helping States, cities, the private sector, and 
researchers work toward our vision of a better world transformed by 
intelligent transportation technologies--one that is safer, greener, 
and smarter.
a better future transformed by intelligent transportation technologies: 
                             best practices
    I am pleased today to provide the Subcommittee on Highways and 
Transit with a preview of ITS America's ``Intelligent Transportation 
Technologies Best Practice Report: A Better Future Transformed by 
Intelligent Mobility'' that the association is preparing for the 
reauthorization of the FAST Act.
    This report will provide best practices on current intelligent 
transportation technology deployment in the United States including: 
project sponsor; location; description of technology and why technology 
was selected; transportation safety, mobility or infrastructure 
challenge the project is addressing; project cost information, 
including Federal match, State and local match, and private funding; 
how the project contributes to the overall state of good repair of the 
system; how the project helps freight and goods movement; how the 
project improves the environment; how the project will support the 
deployment of connected and automated vehicle technologies and smart 
infrastructure; how the project supports larger smart communities 
objectives; the project's economic benefits; and level of support from 
Federal, State, and local elected officials.
    The report will provide a detailed body of data on intelligent 
transportation technology deployment. We will use the data to inform 
Congress and the Administration on the need to prioritize intelligent 
transportation technologies in the reauthorization of the FAST Act. We 
will also use the best practices to inform the owners and operators of 
most of nation's transportation infrastructure--State, city, and county 
elected officials and policymakers.
    The ITS America's ``Intelligent Transportation Technologies Best 
Practice Report: A Better Future Transformed by Intelligent Mobility'' 
project was announced on August 9, 2018. We have received best 
practices from 12 State departments of transportation, two metropolitan 
planning organizations, three research institutions, and one private 
sector company. Although it is early in the process, the best practices 
received to date provide excellent examples of how intelligent 
transportation technologies are helping to address transportation 
infrastructure challenges from metropolitan areas to rural communities 
across the country.
    Best practices focus on deployment of congestion-reduction 
technologies available today such as current generation active traffic 
management, managed lanes, incident response management and smart 
signal operations. Current travel demand management strategies include 
systems that provide availability and pricing of capacity on roads, 
highways, parking, and curb space.
    The current generation of intelligent transportation systems don't 
simply report congestion to infrastructure operators or road users, but 
also actively manage transportation assets (e.g., highway/intersection/
bridge lanes, ramps, parking stalls, etc.) to leverage their maximum 
capacity, capabilities, and lifespan for all. The next generation 
systems will tightly integrate data from automated and connected 
vehicles, which further improve the productivity of our transportation 
infrastructure by orders of magnitude over current systems.
    ITS America will be compiling intelligent transportation best 
practices through the end of 2018. We look forward to an opportunity to 
again appear before this Subcommittee with our complete report on 
intelligent transportation technologies best practices.
    summary of intelligent transportation technology best practices
            Arizona Department of Transportation Interstate 10 Dust 
                    Detection and Warning System
    The Arizona Department of Transportation is in the process of 
creating a first-of-its-kind dust detection and warning zone on a busy 
rural stretch of Interstate 10 between Phoenix and Tucson that has 
frequently seen hazardous blowing dust. The dust storm early warning 
system uses both spot detection technology and remote sensing 
technology to measure both the visibility along the roadway and to 
detect the development of dust events at a distance from the highway to 
allow for advance warning time. The visibility alerting capability will 
be integrated with automated response using Variable Speed Limit (VSL), 
Dynamic Message Sign (DMS), and in-pavement detection (speed loops) to 
warn travelers of actual or potential dust events prior to encountering 
them within the corridor, and closed-circuit cameras will be installed 
that allow staff at ADOT's Traffic Operations Center in Phoenix to see 
the real-time conditions on the roadway. This entire system will be 
connected via fiber optic cable, which results in faster information 
dissemination for motorists and for ADOT when blowing dust develops 
suddenly in this 10-mile stretch.
            California Department of Transportation Interstate 80 
                    Safety, Mobility, and Automated Real-time Traffic 
                    (SMART) Corridor
    The Interstate 80 Safety, Mobility, and Automated Real-time Traffic 
(SMART) Corridor project combines traditional traffic operations 
management strategies and technologies, with new approaches, such as 
active traffic management and the use of overhead lane control signs to 
alert travelers and harmonize traffic speeds to conditions. These 
measures are being combined with adaptive ramp metering, the use of 
arterials, and information display boards to give travelers the 
information needed to make wise travel route and mode choices. The 
integrated corridor management approach relies on interconnecting 
Transportation Management Centers (TMCs) operated by local 
jurisdictions with Caltrans' regional TMC, video monitoring, and 
playbooks for planned events and incidents.
            Colorado Department of Transportation SMART 25 Managed 
                    Motorways Pilot Demonstration
    The managed motorways concept first developed and implemented by 
the Victoria State Department of Transportation (VicRoads) in 
Melbourne, Australia, is a complex coordinated ramp metering and 
freeway management system which adjusts to real-time traffic conditions 
to prevent the breakdown of corridor traffic-flow. The complexity of 
the system requires a robust deployment of traffic detection on ramps 
and the freeway mainline to fully understand and control for real-time 
congestion conditions.
            Colorado Department of Transportation RoadX's Smart 
                    Pavement Project
    RoadX Smart Pavement is a precast concrete panel embedded with 
digital technology and fiber optic connectivity that acts like a laptop 
tracking pad.
            Colorado Department of Transportation RoadX's Smart Cone 
                    Pins Project
    RoadX in partnership with iCone developed a low cost ($600/unit to 
buy) GPS pin that fits into a standard roadway cone. When that ``smart 
cone pin'' is activated, it sends its true location and status to a 
cloud environment that anyone one can ingest and display on a map.
            Florida Department of Transportation Truck Parking 
                    Availability System (TPAS)
    Truck parking shortages are a national safety concern. The current 
deployment of TPAS is 68 public sites located throughout Florida's 
State highway system along Interstate 10 (SR 8), Interstate 75 (SR 93), 
Interstate 95 (SR 9), and Interstate 4 (SR 400). TPAS uses a 
combination of in-pavement space occupancy detection for the location 
with mixed vehicle type usage (welcome centers and rest areas) and 
microwave vehicle detection for monitoring of ingress/egress at the 
weigh stations. The data are aggregated at the District Regional 
Transportation Management Center (RTMC) and disseminated to the 
commercial vehicle operators through dynamic roadside signs as well as 
through Florida's 511 system and third party data feeds.
            Georgia Department of Transportation Statewide Traffic 
                    Signal Software Upgrades
    By deploying an advanced and open traffic signal control platform, 
Georgia Department of Transportation (GDOT) seamlessly manages arterial 
operations with local agency partners across jurisdictional boundaries. 
With an additional suite of operational tools, as well as real-time 
monitoring using high-resolution data and automated traffic signal 
performance measures, GDOT leverages technology to extend engineering 
and maintenance resources across the entire State. Targeting issues 
proactively and responding to maintenance issues before they impact the 
traveling public improves the mobility of all users on the arterial 
network.
            Maryland Department of Transportation: Coordinated Highways 
                    Action Response Team (CHART) Development
    The CHART Advanced Traffic Management System (ATMS) is a set of 
software programs running on a combination of Windows 2008 Servers, 
connected to a Statewide network of Closed Circuit Television (CCTV) 
cameras, overhead and portable Dynamic Message Signs (DMSs), Highway 
Advisory Radios (HARs), Traffic Sensor Systems (TSSs) (microwave 
traffic flow detectors), remote weather stations, and On/Off devices 
(electronic relay devices such as for horns and fog beacons). It is 
used to identify and track traffic flow disruptions, send responders to 
correct the disruption and notify the public using the DMS and HAR 
devices, as well as sending notifications to the media and feeding data 
to a live traffic web site (http://www.traffic.maryland.gov) and 
Maryland 511.
            Maryland Department of Transportation: Freeway Traffic and 
                    Safety Patrol/Response (FTSP) Vehicle Acquisition
    The FTSP vehicles include both heavy duty and light duty vehicles. 
To perform incident management and emergency response functions 
efficiently, these FTSP vehicles are equipped with state-of-the-art 
technologies such as Automated Vehicle Location (AVL), Permanently 
mounted Closed Circuit Television (CCTV) cameras, two-way radio 
communications and Capital Wireless Information Net (CapWIN) 
capabilities.
            Michigan Department of Transportation: US-23 Flex Route
    Completed in 2017, the US-23 Flex Route is nine miles in length 
from M-14 to M-36 north of Ann Arbor. The project included construction 
of road, bridge and interchange operational improvements and Active 
Traffic Management (ATM) strategies for the US-23 corridor to address 
daily recurring and non-recurring traffic, incident management and 
overall motorist safety. Using the Flex Route's lane control gantry 
system, MDOT can now dynamically manage recurrent and non-recurrent 
congestion through technology and operational ATM strategies including 
dynamic lane control and shoulder use, variable speed advisories and 
queue warning.
            Metropolitan Transportation Commission of the San Francisco 
                    Bay Area: Bay Bridge Forward
    Bay Bridge Forward is a suite of projects that moves more people in 
fewer vehicles to make the most efficient use of the bridge's capacity. 
It includes implementation of near-term, cost-effective operational 
improvements that offer travel time savings, reliability and increased 
capacity for carpooling and bus/ferry transit. These improvements will 
not only increase person throughput and improve access to jobs in San 
Francisco but also reduce congestion, incidents, and emissions in the 
bridge corridor.
            Pennsylvania Department of Transportation: Interstate 76 
                    Integrated Corridor Management
    The project is located along the I-76 corridor in Montgomery and 
Philadelphia Counties. The mainline component of the program consists 
of junction control and flex lanes using a collection of ITS 
technologies such as dynamic lane assignment, variable speed limits and 
queue warning, also known as Active Traffic Management (ATM). Traffic 
signal equipment on arterial roadways will be upgraded and 
standardized, and control and maintenance responsibilities for these 
corridor signal systems will transfer from the municipalities to 
PennDOT. Both the mainline and arterial roadways will be outfitted with 
communications equipment that will allow for the bi-directional flow of 
information between roadway infrastructure, automobiles, transit 
vehicles, pedestrians, and bikers. These deployments will support the 
Commonwealth's commitment to furthering vehicle-to-infrastructure 
connected vehicle initiatives.
            Regional Transportation Commission of Southern Nevada: 
                    Waycare
    Located in southern Nevada, Waycare helps improve safety and 
efficiency on freeways, including key freight corridors and major 
arterials by compiling and analyzing data to report in real-time the 
location of accidents and predict where dangerous driving conditions or 
congestion may occur. This technology enables faster validation and 
response to roadway incidents as well as a more efficient use of 
resources to proactively deploy traffic patrols and abatement efforts 
with the goal of preventing incidents.
            Regional Transportation Commission of Southern Nevada: 
                    INRIX
    INRIX's state-of-the-art platform allows cities and road 
authorities to digitize their traffic rules and restrictions, such as 
speed limits, crosswalks, turn restrictions and bikes lanes, so they 
can communicate with highly automated vehicles (HAVs), allowing them to 
operate safely and effectively.
            Regional Transportation Commission of Southern Nevada: Audi
    Audi debuted the first-of-its-kind ``Time to Green'' feature that 
provides the driver with a countdown to when a red light will turn 
green. The Regional Transportation Commission of Southern Nevada's 
(RTC) advanced traffic management system provides specially equipped 
Audi vehicles real-time traffic signal information through countdown in 
the instrument panel. The ``Time to Green'' feature helps reduce stress 
and keep drivers more informed when approaching intersections. Thanks 
to data provided from the connected vehicle, traffic signal timing 
sequences can be adjusted to keep traffic flowing and reduce idling 
time and congestion that leads to increased emissions and air 
pollution.
            Regional Transportation Commission of Southern Nevada: AAA 
                    and Keolis
    The Regional Transportation Commission of Southern Nevada (RTC), 
along with the city of Las Vegas, provides traffic signal data to a 
self-driving shuttle sponsored by AAA and Keolis that operates in mixed 
traffic along a half mile loop in downtown Las Vegas. The shuttle is 
the country's first autonomous bus to be fully integrated with ``smart 
city'' infrastructure. The shuttle is fully electric and does not 
produce emissions that lead to air pollution. Lessons learned from a 
fully autonomous deployment in a complex urban setting will inform 
other use cases and lead to environmental benefits.
            Regional Transportation Commission of Southern Nevada: 
                    Nexar
    Nexar is an app that uses smartphone dash cams and wireless 
technology to provide drivers real-time alerts to prevent vehicle, 
cyclist and pedestrian collisions. The app records video outside of a 
vehicle and measures vehicle dynamics related to speed, braking and 
turns. Warnings from adjacent vehicles are communicated to drivers via 
the app, such as the need to brake for a hazard. The Nexar network is 
well established in New York City and San Francisco, where it reported 
a 24 percent reduction in collisions since its inception.
            Tennessee Department of Transportation: I-24 SMART Corridor
    Tennessee Department of Transportation is implementing an 
Integrated Corridor Management (ICM) system that will seamlessly manage 
the corridor as a multimodal system through institutional collaboration 
and integration of infrastructure. This ICM system will implement ramp 
metering, multijurisdictional traffic signal coordination, electronic 
signs for traveler information, incentivized removal of disabled 
vehicles, transit service enhancements, incident management strategies.
            Utah Department of Transportation: Multiple Intelligent 
                    Transportation Technology Projects
    The signal interconnected projects improved signal coordination 
through signal controller time clock syncing. Variable message sign 
project improved communication of road conditions and safety messaging 
to traveling public. The fiber optic communications projects improved 
communications with ITS devices (CCTV, VMS, Traffic Signals, RWIS, 
etc.) and improved communications/emergency services to remote areas.
            Washington State Department of Transportation: US 395/
                    Hawthorne Road Channelization & Signal Modification
    This project revised the lane configuration and upgraded the 
existing signal system at Hawthorne Road and US 395 in Spokane, 
Washington. US 395 (Division Street) is a major at-grade arterial route 
in/through Spokane and a major freight route. Channelization revisions 
created exclusive left turn lanes on Hawthorne going east and west, a 
combined through lane and right turn lane for eastbound traffic, and 
exclusive through lanes and right turn lanes for west bound traffic. 
These changes allowed the signal to run in a standard eight-phase 
operation under new signal controllers capable of expansion to 
automated vehicle technologies and increased operational efficiency of 
the intersection. The total reduction in vehicle delay is 22,637 
minutes/day.
            Washington State Department of Transportation: Centralized 
                    Signal System-Joint ATMA throughout Clark County
    Clark County, Washington, is part of the Portland, Oregon 
metropolitan service area. As the second densest county in Washington, 
smart solutions are necessary to extend the service life of existing 
infrastructure to sustain the region's rapid growth. Clark County 
negotiated with their vendor to transform their local centralized 
traffic signal system into a regionally shared Advanced Traffic 
Management System (ATMS). This upgrade by Clark County enabled the 
remaining local jurisdictions to share traffic data, and remotely 
operate traffic signals, within each other's systems. As part of the 
agreement, WSDOT-owned-and-operated signals from the seven-county 
region of Southwest Washington may utilize the regional signal system. 
These automated processes will maximize utilization of existing 
infrastructure, reduce delays and emissions, and increase mobility.
            Wyoming Department of Transportation: Mobile App 
                    Enhancements
    WYDOT developed a mobile application for smartphones to share pre-
trip and en route traveler information. This application had three 
major components:
    <bullet>  A map for pre-trip planning that provides information 
including road conditions, traffic incidents, weather sensor data, web 
camera images, road construction notifications, and truck parking 
locations.
    <bullet>  A hands free/eyes free feature that speaks road 
condition, traffic incident, and road construction information as 
drivers travel down the road, alerting them in advance to adverse 
conditions ahead.
    <bullet>  A ``Where am I?'' feature that correlates the user's GPS 
location to the nearest route and mile marker. This can be used in an 
emergency when a driver needs to be able to share his or her location. 
The location can easily be sent via text or email.
            Wyoming Department of Transportation: Revised Commercial 
                    Vehicle Operator Portal
    The Commercial Vehicle Operator Portal (CVOP) is a web-based system 
focused on providing a one-stop shop for current road conditions and 
road weather forecast information on the most commonly traveled 
commercial routes in the State. This information is shared with the 
trucking community and was designed based on feedback provided directly 
from fleet managers.
            Econolite: Lakeview Avenue Overcrossing Orange County 
                    Transportation Authority
    On June 6, 2017, the Lakeview Ave. overcrossing in Orange County, 
California, officially opened to drivers. The overcrossing now routes 
vehicular traffic over Burlington Northern Santa Fe (BNSF) railroad 
line uninterrupted. Nearly 70 individual trains use the BNSF tracks 
daily, regularly blocking the way of drivers traveling north or south 
along the busy corridor. As part of the project, several intersections 
along Lakeview Ave. were upgraded with new NEMA traffic control 
cabinets and 2070 controllers. This provides the traffic management 
technology that enables programming of signals to help optimize traffic 
flow through the corridor. In addition, emergency vehicles and first 
responders, including ambulances, fire, and police are now able to 
respond more quickly and cross the rail line without interruption, 
which is critical for life-saving calls.
            Southwest Research Institute: ActiveITS
    ActiveITS is a proven and stable system, capable of obtaining 99.99 
percent+ uptime, and can run in clustered virtualized and cloud-hosted 
configurations. Key features of the ActiveITS system include automated 
event management response plans for dynamic message sign (DMS) 
postings, email notification, traveler information alerts, highway 
advisory radio (HAR) messages; archiving and reporting to enable 
performance-based oversight of event management operations; 
interconnected operations for information sharing and control between 
traffic management centers; and management of field devices, events, 
and other functions by an operator in a single integrated browser/map-
based/application-based interface in a Windows environment.
            Texas A&M Transportation Institute and Virginia Tech 
                    Transportation Institute: Implications of Truck 
                    Platoons for Roadside and Vehicle Safety Hardware
    Researchers and students at the Texas A&M Transportation Institute 
(TTI) are examining how roadside safety devices, such as guard rail and 
median barriers, will react to an impact from a truck platoon. 
Researchers and students at the Virginia Tech Transportation Institute 
(VTTI) are examining how crashes such as these would affect the 
occupants of the vehicle. The research will inform policy on truck 
platoon operating rules and roadside safety device standards.
    [Editor's note: Mr. Bhatt's 78-page prepared statement is available 
in its entirety at the ITS America website at http://www.itsa.org/s/
ITSA-Shailen-Bhatt-Testimony-House-Highways-and-Transit-Subcommittee-
Innovation-in-Surface-Transport-tyt4.pdf.]

    Mr. Graves of Missouri. Thank you very much.
    Mr. Iwasaki.
    Mr. Iwasaki. Thank you, Chairman Graves. Good to see you.
    Ranking Member Norton, Chairman Shuster, Ranking Member 
DeFazio, it is good to see you again as well.
    Thank you for inviting us here this morning. We appreciate 
it. My name is Randy Iwasaki, and I am the executive director 
of the Contra Costa Transportation Authority. I have been a 
director for 8 years. Prior to the 8 years at CCTA, I worked 
for Caltrans for 27 years. I started as an entry-level 
engineer. I left as the director under Governor Schwarzenegger.
    I have been fortunate enough to participate on a number of 
national panels. Recently, I was the chairman of the National 
Freight Advisory Committee. And also, the Strategic Highway 
Research Program, I was the technical coordinating committee 
chair for renewal of our Nation's infrastructure. And so I have 
experience on the national level as well.
    The Contra Costa Transportation Authority, we are a public 
agency. We administer a sales tax. We oversee the planning, the 
construction, the design of our transportation improvement 
projects and programs for the county. So we have a staff of 20, 
but that is not the secret sauce. I think we have a great 
relationship with our elected officials. We have an elected 
board that governs us, 11 members, and they support our big 
thinking and our innovations. I think that is pretty critical 
for us at the authority.
    One of those is Congressman DeSaulnier. He has been a 
powerful and tireless transportation advocate for CCTA and the 
bay area. I want to especially thank him for his leadership in 
sponsoring an important bipartisan bill, H.R. 4421. Along with 
other leaders such as Congressman Rodney Davis, Congressman 
Lloyd Smucker, Ranking Member DeFazio, and others, this 
bipartisan piece of legislation will level a playing field for 
electric trucks.
    Because we are responsible for planning, we keep an eye on 
the future. And so our planning documents look out in the 
future, and the reason why that is important is your capital 
improvement programs are based on your planning documents. So 
if you are not taking into account the next generation of 
technology, you may be planning your future incorrectly, and I 
think that is very, very important.
    I am here today to talk about three projects that we are 
working on. The first is we founded the largest secure 
autonomous vehicle test bed in the United States, GoMentum 
Station. We have a large number of partners that are testing 
there: Honda, Lyft. We also have freight, so Uber ATG. And we 
also have the electric shared autonomous EasyMile shuttles.
    It is also a magnet for startup companies, which is 
important. And that is why CCTA is leading a pilot 
demonstration project to test electric, low-speed, 
multipassenger autonomous vehicles manufactured by EasyMile 
that are not equipped with a steering wheel, brake pedal, or an 
accelerator.
    Earlier this year, we deployed the first ever shared 
autonomous vehicle on public roads in California, so we got the 
first two licenses for our two vehicles on public streets in 
Contra Costa County, in the city of San Ramon.
    We know that in our county, probably like many of yours, we 
can no longer build our way out of congestion, and so we have a 
seven-pronged approach called Innovate 680. I have a document 
here. There are seven approaches combined into four projects. 
So express lanes, we are going to complete the express lanes on 
Interstate 680. It is the eighth worse commute congested area 
in the bay area.
    We are going to cool hot spots. We are going to fix the 
weaving problem that we have that causes congestion. We are 
going to run buses on shoulders. When speeds drop below 35 
miles an hour in the main line, we are going to allow those 
buses to go out on the shoulders. We are going to have adaptive 
ramp metering to hold the traffic as those buses pass the on-
ramps to clear the way for the bus to keep those buses on 
schedule.
    We are also going to do innovative operational strategies, 
and first- and last-mile connection with our technology. We are 
going to prepare the corridor for the future. You heard from 
Ohio that they are preparing their corridor with DSRC, 
dedicated short-range communication, and other technologies. We 
are going to make our park-and-ride lot smart. And then TDM 
strategies, transportation demand strategies.
    So the last example I have, and I have results of it, is we 
are using an app called Scoop. And so we incentivize, using $2 
a ride, we are connecting a driver with a rider. And that is 
very important, because we don't need everybody to ride a bus, 
just a small percentage of the population will fix congestion. 
It is like the Birthday of Martin Luther King, Jr. Not 
everybody gets that holiday off, but yet the freeways in your 
communities probably operate pretty well. Why? A small 
percentage of the community is on vacation that day. And that 
is what we are looking for at the authority.
    So thank you very much for the short time that I have had 
here to share some of the technology projects that we are 
working on. And I look forward to working with you on the next 
surface transportation bill. Thank you very much.
    [Mr. Iwasaki's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Randell Iwasaki, Executive Director, Contra Costa 
                        Transportation Authority
    The Contra Costa Transportation Authority (CCTA) is a public agency 
formed by Contra Costa voters in 1988 to manage the county's 
transportation sales tax program and oversee countywide transportation 
planning efforts. With a hard-working staff of 20 people managing a 
multi-billion-dollar suite of projects and programs, CCTA is 
responsible for planning, funding and delivering critical 
transportation infrastructure projects and programs that connect our 
communities, foster a strong economy, increase sustainability, and 
safely and efficiently get people where they need to go. We utilize the 
tax-exempt municipal bond market to accelerate construction and 
delivery of our projects to the public. Because of this important tool, 
we've been able to deliver 25 years' worth of construction projects in 
10 years. We believe the solutions we're testing to our county's 
transportation challenges can be replicated in most communities across 
the country.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 the future of transportation is bright
    In addition to planning, funding, and delivering the transportation 
projects and programs the voters approved, we're also the county's 
congestion management agency and long range transportation planning 
agency. With this in mind, we are deeply involved in identifying and 
applying ground-breaking new developments in transportation and 
technology. Technology is redefining mobility and disrupting the 
transportation industry on a global scale, as it is doing in most 
industries. CCTA wants to make sure that the plans we make for the 
county's transportation infrastructure take these emerging technologies 
into account so we can best serve the needs of Contra Costa's 1.1 
million citizens. Our over-arching goals are to ensure that our plans 
use taxpayer dollars wisely and that we are investing in the technology 
of the future--not yesterday's technology. We are addressing the 
challenges of proactively engaging with and preparing for future 
transportation technologies through GoMentum Station.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      collaboration and innovation
    Founded by CCTA and its partners, GoMentum Station is a secure, 
automated and connected vehicle testing facility built on a public/
private partnership model, offering the private sector a space to 
innovate and test while providing the public sector access to new 
technologies as they are developed. Because of our proximity to Silicon 
Valley, we are close to where major auto manufacturers are conducting 
research and development for connected and autonomous vehicles. Named 
one of ten federally designated automated vehicle proving grounds by 
the U.S. Department of Transportation (DOT), GoMentum Station is one of 
the largest secure proving grounds in the United States, featuring 20 
miles of paved roadway, two 1,400-foot tunnels, curbs, gutters and 
sidewalks, railroad crossings, potholes and a mini-city. The unique 
features offered by GoMentum Station enable partners to safely push 
their technology to its limits while testing in a controlled 
environment.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    GoMentum Station is also a magnet for startup companies. We receive 
a wide variety of promising ideas presented to us by companies looking 
for partners and a place to test. Partnering is a philosophy that we 
try to employ in all aspects of our work, and we're very proud of our 
national and international partnerships. GoMentum Station has developed 
cooperative agreements with the governments of Japan and the 
Netherlands, and is one of a handful of facilities which support 
multimodal testing. In addition to testing self-driving cars for 
companies like Lyft and Honda, GoMentum Station has also hosted testing 
of freight vehicles by Uber ATG and electric, shared autonomous 
EasyMile shuttles. We're exploring how these technologies can most 
efficiently contribute to our future transportation system by bringing 
in partners to test wireless charging and fleet management.
          striving for the best solutions--locally & globally
    Our work with GoMentum Station has enabled our agency's 
commissioners and staff to keep their finger on the pulse of innovative 
transportation research. Armed with this knowledge, we can then 
incorporate the best available information and resources on what is 
truly working to improve mobility and safety, and deploy it across the 
county, like inductively charged electric buses with our transit 
partner County Connection. We're also changing the way we plan for the 
future. We're using the latest technology to gather public input--from 
social media to telephone town halls and webinars--and to bring our 
information directly to the public, instead of making them come to us 
in traditional public meetings. Because of this, we received more 
public comments on the last update of our Countywide Transportation 
Plan than we had in the previous 25 years combined.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    One concern we heard over and over again from residents was that we 
have a first-and last-mile problem in our county. Many of our residents 
would choose to use public transit--but when they arrive at the train 
station there is no parking available, so they drive to their 
destination. Other residents have told us the bus station is too far to 
walk to from their home, or the bus doesn't drop them off close to 
their workplace, school, or medical appointments. We're working hard to 
solve these problems by using innovative new technologies.
    For example, CCTA is leading a pilot demonstration project to test 
an electric, low-speed, multi-passenger autonomous vehicle manufactured 
by EasyMile that are not equipped with a steering wheel, brake pedal, 
or accelerator. These vehicles can help connect residents to existing 
transit options, schools, and business centers with zero emission, and 
offer a smart solution to the first-and last-mile challenge. We have 
been coordinating with the National Highway Traffic Safety 
Administration (NHTSA) to ensure this pilot project is conducted as 
safely as possible.
    And in March of this year, CCTA received permission from the 
Department of Motor Vehicles to deploy the first-ever shared autonomous 
vehicle on public roads in California. We believe these vehicles show 
great promise and are poised to become a cornerstone of publicly 
accessible shared vehicle technology for Mobility-on-Demand (MOD) 
programs worldwide.
    CCTA is committed to identifying alternatives to transportation 
solutions that attempt to build our way out of congestion. Instead, 
we're evaluating and developing our long-range plans to apply current 
and future technologies to improve our regional transportation system. 
A great example is our comprehensive plan to innovate InterState 680, 
one of the most congested corridors in our county. We're looking at 
integrating traditional corridor management techniques such as carpool 
lanes and adaptive ramp meters with modern transit management. We're 
adding cutting-edge concepts like neighborhood mobility hubs to 
centralize bike share, car share, electric scooters, and provide a 
pick-up place for shared autonomous vehicles to connect with transit. 
We're also looking at using incentives to encourage mode shift away 
from single-occupant vehicles. We know that if we can persuade some of 
our residents and commuters--not all of them--to leave their single-
occupant vehicles at home, we can make a big dent in congestion in our 
area.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Incorporating technology into our transportation systems holds a 
lot of promise--not just to eliminate those annoying moments where 
you're the only vehicle waiting for the red light to change at an 
otherwise empty intersection, but to improve the quality of life for 
your constituents as well. Think about the benefits of a system that 
could give emergency vehicles priority, clearing the path for an 
ambulance by initi-ating signal timing changes ahead of the vehicle, 
which could potentially shave life-saving minutes off its trip.
    If it sounds like we are working on a lot of interesting projects 
and ideas, it's because we are. I'd like to recognize the visionaries 
on the Contra Costa Transportation Authority Board who enable our staff 
to really think big and try out new ideas. There's not a lot of 
incentive for government to innovate, because innovation sometimes 
involves failure. And given our responsibility to taxpayers, it's not 
easy for elected officials to embrace the uncertainty of untested 
solutions. I am fortunate to work with a forward-thinking Board, staff 
and community.
    This is an exciting time for public agencies, like CCTA, to 
participate in and contribute to the conversation about how this new 
technology can best be put to use. Whether it's an 81-year old 
grandmother who no longer drives but still wants to visit her 
granddaughter, or finding a workable solution for the first-and last-
mile challenges of public transportation, by staying abreast of new and 
emerging technologies, public agencies like CCTA can lead the way in 
reimagining how we get where we need to go. I firmly believe these new 
technologies will have a transformative and positive effect on our 
transportation systems, our cities, and our lives. Thank you for giving 
me the opportunity to share highlights of the work we are doing to plan 
for the future of transportation in our region and beyond.

    Mr. Graves of Missouri. All right. With that, we will move 
to Members and questions, and we are going to start with Mr. 
Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman. Thank you, witnesses, 
for being here.
    To Mr. Barna, DriveOhio, welcome. I visited your facility. 
It is an excellent facility. I also want to thank you for 
participating in the press conference we had requesting that 
Secretary Chao officially designate the Transportation Research 
Center as a Federal autonomous vehicle proving ground.
    As you know, the outgoing Obama administration made only 10 
designations around the country, and TRC was not one of the 10, 
despite having tested autonomous vehicles for more than 40 
years. And I think it should be a part of that to get those 
extra, extra resources.
    In your opinion, why should the United States Department of 
Transportation include TRC as a federally designated autonomous 
vehicle proving ground?
    Mr. Barna. Chairman Graves, Representative Gibbs, thank 
you. My understanding is those designations were made under the 
Obama administration as a community of practice with the idea 
that they would share information as far as testing research 
around autonomous-connected vehicles.
    I believe TRC, being the largest automotive proving ground 
in North America, would offer prominently as far as 
contributing information, as far as testing research to that 
community of practice.
    As I mentioned before, the TRC is 4,500 acres in size. 
Within that 4,500 acres in size, 540 are being now--well, it is 
under construction now, is building an autonomous vehicle, 
connected vehicle testing facility. And let alone that, TRC is 
connected to a smart corridor, the U.S. 33 corridor I mentioned 
in my testimony, as well as it is the only facility where NHTSA 
[National Highway Traffic Safety Administration] test-crashes 
vehicles.
    Mr. Gibbs. Yeah, I agree. And I think I also would note 
that that happened, I think, the day before President Trump's 
inauguration, so it might have been not thought out as well as 
it should have been.
    Another question, Mr. Barna. Commercial communication 
providers, you know, are increasingly conducting cars and smart 
cities technologies like we are doing in Columbus, Ohio, with 
cellular networks, deploying fiber to support 4G LTE networks 
and future 5G networks. What role do you see the providers, 
whether fiber or cellular, in supporting connected vehicles?
    Mr. Barna. Chairman Graves, Representative Gibbs, I believe 
they will play a role in the connected vehicle environment. 
When we look at connected vehicles, whether it is a vehicle 
communicating with another vehicle or a vehicle communicating 
with infrastructure or vice versa, where tomorrow we see the 
vehicles providing us a lot of information as far as 
infrastructure is concerned. Instead of us having 
instrumentation on the highways, your vehicle will give us a 
lot of information, whether the headlights come on, whether the 
windshield wipers come on, your antiskid technology comes on. 
All that information will be fed via either direct short-range 
communication or cellular to the folks monitoring the 
infrastructure, and as well the folks monitoring the 
infrastructure can push information instantaneously out to 
those vehicles via the 5G or the short-range communication, 
which would add the fiber back on.
    Mr. Gibbs. OK. Mr. Iwasaki, as you know, your Contra Costa 
GoMentum Station was one of the 10 who received the U.S. 
Department AV proving ground designation by the Obama 
administration. Your program director sent a letter to 
Secretary Chao in support of the TRC being designated as an AV 
proving ground. Would you please share your views on the DOT AV 
proving ground designation program and if you still support the 
TRC being designated?
    Mr. Iwasaki. Absolutely. So we are actually going to visit 
TRC in Ohio to try to form a partnership to make sure that we 
are sharing that data. So when you become one of the 10 
designated test beds--well, when we did, we agreed to a couple 
of things: one, there was no money available; number two was we 
would create a safety officer, which we did, that is Jack Hall; 
and then three, we would share information.
    So we are making a concerted effort to go out to TRC to see 
if they still want to partner with us. And we can do some 
testing that they can't. So our pavement is very old. The 
bridges are old. And it is very hard for a contractor to mimic 
old pavement that is reflective of maybe the conditions of the 
roads in all parts of the country----
    Mr. Gibbs. California especially, but OK.
    Mr. Iwasaki [continuing]. Versus brandnew pavement. And so 
I think there are some synergies that we can have with Ohio 
because it is a state-of-the-art test bed. We understand that. 
And I think that they would be a great partner for GoMentum 
Station.
    Mr. Gibbs. Well, great. Thanks, all, for being here.
    I yield back, Mr. Chairman.
    Mr. Graves of Missouri. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I must say, the testimony that all of you have given has 
told me much I did not know about how innovation is proceeding, 
notwithstanding anything that happens in the Congress. It just 
looks like it is happening and that States, localities are 
making it happen.
    So I find it very exciting. I couldn't tell--and maybe I 
could begin with Mr. Bhatt--whether we are--since the 1,000 
flowers look like they are blooming out there already, and I am 
trying to find what role Congress should play in facilitating 
this new mobility, transportation mobility around the country. 
For example, typically, the Federal Government has a role in 
safety, and so when we think about autonomous vehicles, we have 
to focus on that. We have to think about taxpayer dollars.
    Essentially, are we in a period of experimentation where 
the Federal Government will be irrelevant when we do the next 
surface transportation bill, or should we be thinking about 
ways to incorporate the kind of innovations you are describing 
into our bill?
    For example, just to take at the local level here in the 
Nation's Capital, the streets are very crowded. So everybody 
likes to get an Uber or a Lyft when they want to. But the 
streets are already crowded, and almost anybody can use his or 
her private car for Uber or Lyft.
    At the same time, the investment by the Congress and the 
localities in transit has been so meager that our subway system 
was falling apart. So what the city is doing, because it has 
got to limit the number of cars out there, is it is putting 
some taxes on Uber and Lyft in order to help pay for the 
transportation system underground because it has got to keep 
both going, and yet it has got to get some of those cars off 
the streets.
    So when I see what is happening in the Nation's Capital, I 
am wondering what should we be doing as we prepare for the next 
surface transportation bill? Is anything you are saying part 
and parcel of what should be in a bill, should be facilitated 
by a bill, should be encouraged by a bill? I am talking about 
the next surface transportation bill. Looks pretty clear that 
it won't look a lot like the last one, which was all about 
roads and bridges and trucks and cars.
    So if the Federal Government has a role through its 5- or 
6-year transportation bills, you could help us to learn what 
the innovations you have described could be incorporated into 
the next bill. Any of your ideas, beginning with you, Mr. 
Bhatt, and any of the rest of you, I would be most informed by 
your ideas. Or just--should we just let it happen out there and 
just leave it all alone?
    Mr. Bhatt. Thank you, Ranking Member Norton. I think that 
it is happening, and you can see across the country--and we 
have members who are States, who are cities, and are private-
sector members, who are research institutions, and so it is 
happening. I do think there is a role for the Federal 
Government to play to ensure uniformity across the country.
    I think that the FAST Act began a nice transition, opened 
up some opportunities for jurisdictions to use some Federal 
funding. I think that there are a couple of bills that are 
looking at the autonomous vehicles, one in the House, one in 
the Senate, that I think that it would be good to get a 
national framework around safety. Safety is our number one 
priority. It would be good to not have 50 different States and 
400 cities all doing something a little different.
    I do agree with you that the approach to moving people--you 
know, we used to talk about moving cars, and now I think it is 
about moving people and data and freight. And this is a little 
different in terms of how we approach the next bill, so it is 
one that needs to be multimodal. And I will stop there and see 
if anybody else has any other ideas they would like to add.
    Ms. Norton. Ms. Castillo.
    Ms. Castillo. I think the Federal Government absolutely 
needs to be involved. My concern, if you are not, is that the 
rural systems will be left behind because everybody will focus 
then again on the urban systems.
    And I understand congestion. I know that is something that 
absolutely needs to be handled and taken care of, but there are 
a lot of people in the rural areas. They need transportation 
just as much as those people do. Even though they are less 
congested, they still have places to go. And I think there is a 
place for autonomous vehicles in those areas and more 
technology.
    It is easier for us to get things done sometimes in the 
rural areas. I just have to get approval by my board to say 
this is the way we want to go, and we figure out the funding 
and go on and just get it done. So there are some pluses for 
having innovation in rural areas. But I absolutely do think 
that the Federal Government needs to stay involved, if nothing 
else, to look out for the rural areas and to ensure that all 
autonomous vehicles are held to the same safety standards.
    Thank you.
    Ms. Norton. Yes, Mr. Iwasaki.
    Mr. Iwasaki. Ranking Member Norton, great question. I have 
a couple of points. One, sometimes meaningful regulations will 
get in the way of innovation. So you have to kind of steer 
clear of that, understand what that technology will do.
    I think in the area of a low-speed shuttle, we see that is 
probably one of the few technologies that will help us get to 
the underserved parts of our community. The people that are 
disabled, old like me, and the folks that choose not to own a 
car or can't afford a car, you can get to that part of the 
community.
    The problem is the regulations don't address those 
vehicles. It is too heavy. And so under the NHTSA guidelines, 
anything under 2,500 production in over 2 years, a speed of 
less than 35 miles an hour, but the weight is 3,000 pounds or 
less, it is really a golf cart under the Neighborhood Electric 
Vehicle program. These vehicles weigh 6,000 pounds, 7,000 
pounds, so they are in a gray area. And so that is one of the 
things that we have to go to NHTSA for every one we bring into 
the country or we deploy. And that is probably not going to 
work into the future.
    And the other thing, and this is really a bigger issue, but 
it is data. And there is some data that is proprietary that the 
partners don't want to share. But imagine the day when, instead 
of being reactive to safety issues, we are going to be 
proactive. So these vehicles, they can see 360 degrees around 
them. They are gathering information. They can see where there 
are near misses.
    And so when I worked for Caltrans, what we did was you had 
accident concentration. You didn't get the near-miss data, and 
so you just were very reactive. We want to be proactive and 
understand where those near misses are, so sharing of the data 
is going to be critical in the future.
    And lastly, I think, just off the top of my head, 
procurement. So when you try to procure technology, it takes a 
while to go through that process. In the meantime, they are on 
version 4 and you are trying to procure version 1, and that is 
going to be a problem, I think, in the future with the rapid 
pace of deployment of this technology.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Graves of Missouri. Chairman Shuster.
    Mr. Shuster. Thank you, Chairman Graves. I thank all of you 
for being here today.
    Just following up on talking about autonomous transit 
vehicles and really the cost. There is just not enough money to 
go around. And I think in the FAST Act--I don't think, I know--
we kept the formula the same, 80/20.
    But what are the--talking about funding, what are the ways 
that transit systems can cut costs significantly? Can you 
address it, Mr. Bhatt?
    Mr. Bhatt. Yes, sir. Thank you, Chairman Graves and 
Representative Shuster, and thank you for your work in this 
space.
    When I was the secretary of transportation in Delaware, we 
saw our transit budget for paratransit go from $15 million in 
2003--I am roughing these numbers--$15 million to $50 million 
because of the demand of people wanting access to the service. 
And that was a challenge for us because each ride that we 
provided cost the State $50, and we charged $2 for that trip. 
So you could see how a return trip quickly became a challenge.
    And so one of the things we started doing was looking to 
partner with private-sector partners where we would just offer 
them $20. Didn't really matter, as long as they met safety 
standards. I believe that the autonomous shuttles that are 
being deployed across the country represent a huge opportunity 
for us to cut those costs, provide better service.
    As Ms. Castillo said, you have to place a call 24 hours 
before, sometimes 48 hours before, and then that ride sometimes 
doesn't show up. With an autonomous service, it is cheaper, it 
is more flexible, and it provides better service. So that would 
be one example.
    Mr. Shuster. And improves safety?
    Mr. Bhatt. And improves safety, as long as it was done 
correctly.
    Mr. Shuster. So autonomous vehicles, that is really the 
path forward if we are going to find out how to expand transit 
systems and not costs keep going through the roof.
    Mr. Bhatt. And, sir, and just to qualify, I was referring 
to the rural transit part of that. I do think that transit in 
urban areas needs to be part of the solution. I think that some 
of the first-mile/last-mile challenge is getting people to 
those trunk lines, the existing either rail or bus lines that 
are out there. I think that will help because that is a big 
challenge for us is how to get people from the house in their 
subdivision out to a main line. That is real a challenge.
    Mr. Shuster. I was in Las Vegas, and I rode on the 
autonomous shuttle. It only holds about 9 right now, but I 
think they have a model that goes up to maybe 22 or 24. But 
they took us around the city, and nobody was driving it. They 
had to go pretty slow because of the--they are going through 
the process, but it just seems to me that that is a big answer 
for us, especially if you are on a line, you are on a rail 
system where we know where the train is going, and it just 
seems to me that is the place we ought to be really focused to 
look to make those tremendous cost cuts and improve transit 
significantly.
    And the other question I have is, I am traveling to 
Pittsburgh on Monday to meet with Argo AI, which is Ford's 
autonomous vehicle company, Uber, and Carnegie Mellon just to 
sort of get a brief on where they are, what they need.
    And so what do you think are some of the things, from your 
perspective, that I am going to hear from autonomous vehicle 
developers? What does the Government need to do? What does the 
Government not need to do? Because I know the one thing I am 
sure of is we can't keep up with the technology. The minute we 
figure out it is OK, it is a whole new technology.
    So what are some of the things you might tell me that the 
Government should do or shouldn't do to make sure we are going 
to be the leaders in the world on autonomous vehicles? Start 
with Mr. Barna.
    Mr. Barna. Chairman Graves, Representative Shuster, I do 
believe the Federal Government has a role as far as 
facilitating a conversation in this. You know, I am not a big 
fan of regulation, but I think because we are looking at 50 
States--and there are a lot of great things happening out 
there, as my colleague, Mr. Bhatt, mentioned, as well as the 
other colleagues--I do believe at some point we are going to 
have to have a national conversation on setting standards, 
interoperability standards, so if we are driving in one State 
and we drive to the next State, it is all the same, in a way 
that that promotes the technology.
    I believe this technology has an opportunity--will impact 
transportation like never before. So it is very important that 
we have the interoperability between the States, not regulation 
necessarily, but interoperability consistency and some 
standardization.
    Ms. Castillo. So speaking from a rural perspective, the 
first-mile/last-mile is something that is also very important 
to us because a lot of people that live in the rural areas do 
work in the urban areas. And so we can partner with our urban 
transit providers as rural providers if we can cover some of 
that first-mile/last-mile stuff.
    And I also just want to encourage people to keep in mind 
the different types of people that use transportation. You 
know, they are not all just young and wanting something new and 
improved. But we have a lot of people that have some cognitive 
disorders or health issues or they are older. I think the 
autonomous vehicles can serve them just as well if they 
understand them and if they are considered safe and accessible 
for all types of people.
    Because when we do talk about accessible vehicles, that is 
not just for people that have some physical disability. 
Accessibility means a lot of different things to a lot of 
different people. So I would just keep those things in mind. 
But I know CTAA also really supports piloting some autonomous 
vehicles and the future of that, especially in some of the 
rural areas.
    Thank you.
    Mr. Bhatt. Representative Shuster, I will be speaking at 
ITS Pennsylvania in Pittsburgh Monday morning, and I am sure 
that they would love for you to come by if you had a moment.
    I think----
    Mr. Shuster. Who is in Pittsburgh besides----
    Mr. Bhatt. ITS Pennsylvania is having their annual meeting. 
I just thought I would flag that for you.
    I would say, when you are talking to those companies, I 
think this is the Federal role that is important here. I spoke 
in China earlier this year at the Beijing Auto Forum, and they 
were very clear that they wanted to dominate the automobile 
manufacturing and communications technology sectors over the 
coming decade.
    And this is, I think, the most important message that from 
a Federal perspective is that we are going to create one market 
in the United States with standards across the entire country, 
as opposed to having 50 different States and a bunch of 
different cities. So I think the economic certainty would be a 
great one to promote.
    Mr. Shuster. Mr. Iwasaki.
    Mr. Iwasaki. I agree with Shailen that that is the key 
thing. You can't create a car for 50 States, so the Federal 
Government has to regulate it so it is interoperable throughout 
our country. And then they have to sell their product somewhere 
else.
    Mr. Shuster. Right.
    Mr. Iwasaki. Right. So that is the key piece that they 
would tell you.
    Mr. Shuster. Thank you all very much. Appreciate it.
    Mr. Graves of Missouri. Ranking Member DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    Mr. Bhatt, you mentioned the difference between Melbourne 
and Denver in terms of throughput because you alluded to 
Aussies being a little more law-abiding or something? Tell me 
about that quickly.
    I mean, here is a question: I am trying to figure this out 
in my head. So you get people at the ramps. You are increasing 
the throughput on the freeway, but at some point previously 
there were more people, you know, trying to--there must be some 
backup on the ramps. And I saw your little graph and there is a 
little bit of backup, but at some point, the ramps are going to 
get unmanageable also, right? I mean, how is that being 
handled?
    Mr. Bhatt. Carefully, sir.
    So thank you, Representative DeFazio, and Chairman Graves. 
As quickly as I can I will say, we use 2,000 vehicles per lane 
per hour is what an interstate lane will move. And when you 
start to get friction and you start to get that start/stop 
effect, you start to break down that number.
    And so the reason I made the comment about the Aussies is 
that they have incredibly high levels of compliance because 
they enforce traffic penalties a lot more punitively there. 
Two, they have photo enforcement. And they will hold people for 
up to 4 minutes on that ramp. And I think that we might have 
different challenges if we tried to hold people for 4 minutes. 
That is why we have reduced our expectation.
    And this is a pilot. It may not work. And if it doesn't, we 
have just added ramp meters that can coordinate with each 
other, but we think it is a valuable aspect. I know that 
California is looking at it. Arizona is also looking at 
intelligent ramp metering. So it is a new technology in the 
toolbox.
    Mr. DeFazio. I mean, the start and stop on the freeway, I 
mean, you get the max--I mean, 2,000 is sort of optimized now, 
but if we had some future date, autonomous vehicles might be a 
higher number, because you would have----
    Mr. Bhatt. Yeah. So when I was speaking with some folks in 
Europe, they said that the introduction of autonomous vehicles 
in Paris actually degrades the system because they don't deal 
well with the traffic circles. But once you get to 20 percent 
penetration, now performance improves.
    And so once we have vehicles talking to each other, 
autonomous vehicles out there, I have seen projections of using 
4,000 vehicles per lane per hour. I talked to a leader from 
Contra Costa County who thought it might be 6,000. And so----
    Mr. DeFazio. So they are going to be like 6 inches per 
bumper off?
    Mr. Bhatt. Right, at that point. But in some parts of the 
country, you are at peak road, because if you can double the 
capacity of the highway because you can move more vehicles 
through it, you are just making a better, more efficient use of 
an asset.
    Mr. DeFazio. Sure. How about urban congestion smart lights? 
One of my nephews, who is an engineer, one of his friends has 
had a system used in Nevada, and now it is being tested 
somewhere in Virginia, on crowdsourcing traffic lights, so that 
you are not sitting at a traffic light, and you are sitting 
there and sitting there and there is like no one coming the 
other way, but you are sitting there because it is a red light. 
Has anyone deployed a system, that you are aware of, that works 
well for that, Mr. Iwasaki?
    Mr. Iwasaki. Congressman DeFazio, there is a company in 
Marin County called RMS. They are looking at adaptive signals, 
because that was the second most common complaint that we got 
as we gathered information to update our countywide 
transportation plan, is people are tired of sitting at a 
stoplight when nobody else is around.
    Technology today ought to be able to let you go. And so the 
idea is adaptive ramp metering based on main line flows of your 
freeway, hold the delay back. It is no different at a traffic 
signal. The problem is coordinating a queue of traffic through 
that during peak hour. It is off peak that drives people nuts.
    Mr. DeFazio. OK.
    Mr. Iwasaki. So there is a company working on that now.
    Mr. DeFazio. OK. Good. I will have to follow up with them.
    Ms. Castillo, I represent a very large district, so I have 
a lot of rural challenges, and I am impressed with your system. 
What is it costing you per ride?
    Ms. Castillo. Currently, it costs an average of about $16 
per ride, and we charge $2. So we are supplementing $14 of it.
    Mr. DeFazio. Sure. OK. And what do you project if you could 
move to an autonomous system? How much would that change?
    Ms. Castillo. So we have--even though we are in rural 
communities, we have some universities or some colleges--they 
are not universities. They are colleges that are in those. And 
they have a lot of foreign students that come, and foreign 
students are usually used to very good public transportation. 
And so it would be great to have--I mean, I could see like an 
autonomous vehicle allowing us to be able to serve them in a 
lot better way than what we are doing now.
    And I think we are starting to look at in the--typically in 
the rural systems, a lot of services provide door-to-door 
service, much like a paratransit service. And so autonomous 
vehicles would allow us to do more shuttle-type services so 
that it would be less expensive, because it is very expensive. 
Like you said, when you are doing paratransit, those costs are 
much higher.
    And so I do think that there are great opportunities in the 
rural communities to use autonomous vehicles to change the look 
of what transportation looks like but still get people where 
they need to go.
    Mr. DeFazio. OK. Thank you. My time has expired.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    One thing I am interested in, and anybody can comment who 
wants to, but just yesterday, Fox Business had an article that 
said driverless trucks could eliminate nearly 300,000 industry 
jobs over the next quarter decade, including more than 80,000 
of the highest paying positions, according to a new study.
    And it says that, ``as technology progresses, autonomous 
vehicles may replace about 51,000 less-than-truckload 
drivers,'' and so forth and so on, and it goes on: ``an 
additional 211,000 truckload jobs will also be vulnerable to 
elimination.''
    What do you think about that, sir? Or what do you say about 
that? Have you considered that or--I am sure you have thought 
about this?
    Mr. Bhatt. Chairman Graves and Representative Duncan, thank 
you for the question.
    Obviously, the job displacement of automation is, I think, 
something that--there is a Federal role there as well.
    In Colorado, under RoadX, we have the world's first 
commercial autonomous vehicle delivery where a truck went 100 
miles on the interstate with the driver not in the driver's 
seat. And I actually got to be on Road Dog Radio because this 
was a big issue for truckers.
    My feeling is that you will see a great deal of 
displacement, probably in a 20-year horizon, not in the next 
few years.
    And so, I think what is important is that we spend the next 
few years making sure that if there are 300,000 jobs 
potentially at stake, that we are intercepting people who may 
be looking at that career and educating them around that.
    However, I would also say from a trucking perspective, I 
think that it is a little similar to an airplane where you have 
a lot of automation in planes, but you still have a pilot in 
there. And I could see a scenario where you have for long-haul 
trucking, a truck driving itself for the overnight and long-
haul portions of it, but when you get into an urban area, the 
driver taking back over just because of the complexity of that 
area.
    Mr. Duncan. Well, it is something to consider. I mean, 
right now, people are saying that there is a shortage of truck 
drivers, and yet, if this automation moves as fast as some 
people predict, it may be sooner than 20 years. And you are 
talking about 300,000 truck driving jobs and another 200,000 
related jobs. That is a lot of jobs. So that is something that 
we need to be considering or thinking about.
    Also, there is another article here from just a few days, 
4, 5 days ago, from the Washington Post that says, ``surveys 
indicate that large portions of the public harbor deep 
reservations about the safety of self-driving technology,'' and 
now it is one of the biggest challenges facing companies 
developing driverless vehicles.
    What are you all doing about that? Do you think that is a 
problem that is just going to take care of itself, or are you 
doing something about it?
    Mr. Barna?
    Mr. Barna. Chairman Graves, Representative Duncan, yeah, 
the two questions we get all the time associated with the 
technology, one is, how safe it is; and two, is how ultimately 
will it disrupt the workforce.
    To address the safety matters, you know, I look at Ohio. 
2017 end, we had 302,282 total crashes, 1,179 of those were 
fatals.
    As with a lot of colleagues around the country, those 
numbers are going up, especially the fatal numbers are going 
up. Over the last 4 years, we have been seeing a 2-percent per-
year increase in our fatal traffic accidents. This technology 
offers a lot of promises as far as addressing those accidents.
    You know, I would like to say this technology doesn't text 
down the roadway, it doesn't comb its hair, it is not eating a 
cheeseburger, and so forth.
    So we see a lot of promises as far as the safety. And as we 
do a lot of outreach to the public, we stress those numbers. 
Ninety-four percent of all of our accidents are caused by human 
error, and that is where this technology would come in and, 
hopefully, reverse that trend.
    As it relates to the workforce you mentioned, that is true, 
you know, we have a lot of logistics in the State of Ohio just 
by the way we are positioned. A lot of the logistics companies 
are projecting 200,000 to 300,000 shortage of truck drivers 
over the next 5 to 10 years.
    I agree with my colleague, Mr. Bhatt, that it is not 
necessarily about the first-last mile that may be impacted as 
most of that middle segment, which is the long haul where they 
cannot get enough folks to drive trucks, if you look at what's 
happening in the industry today.
    Be that as it may, as with any new technology, it 
ultimately disrupts the workforce in some form or fashion. And 
I think what we are doing at DriveOhio is we have a group 
workforce development. We are playing an active role, not only 
in job training programs, but also looking at curriculum in 
high schools; STEM programs, everything like that, looking at 
the future jobs.
    I think if we get in front of this and be more proactive 
with it, that transition will be a lot more smoother than us 
just, you know, going from one type of job to the other.
    So that is how we are addressing it in the State of Ohio.
    Mr. Duncan. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Albio.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for being 
here today.
    You know, I am from New Jersey, and I probably represent 
the most congested area in the country. The town that I live in 
is 1 square mile, has got 52,000 people in it.
    The other town, Hoboken, New Jersey, has about 51,000, and 
it is 1 square mile. And then I have other cities that are just 
as congested.
    So I will invite you to my district to test this technology 
out to see how this thing works when you have so many people 
out on the road.
    We have every kind of transportation you can think of. From 
the ferry to the light rail, to the buses, to the illegal 
jitneys that stop in the middle of the roads, to Uber. So I 
would think that out in the middle of nowhere, testing this 
technology might not work as good as it would work in a 
district that is so congested.
    So I was just wondering where have you tested that is so 
congested that you are so enthused about this technology in the 
future? I know that Columbus, Ohio, obviously is a big city, 
but I don't think they have, you know, 52,000 people, 1 square 
mile, and everybody wants to drive a car. I mean, you can't 
even park in my district.
    So have you tested in some of these areas?
    Go ahead, sir. You seem to be the most advanced, you know, 
you seem to be----
    Mr. Barna. Chairman Graves, Representative Sires--if I 
pronounced that right--we are looking at testing in the urban 
areas. Obviously, that is where we get most of the congestion. 
If we look at Columbus, Columbus is the fastest growing, 
million-plus metro city in the country. It is the fastest 
growing in the Midwest. So we are starting to experience those 
pains now that some of the larger cities are.
    And what we are looking at is a combination of the 
connected technology, where the infrastructure plays a role in 
that.
    My colleague, Mr. Bhatt, mentioned a smart lane or a hard 
shoulder run, is what sometimes it is referred to in Michigan. 
We are now employing that technology in the city of Columbus, 
where ultimately, we are looking at ways to push traffic 
through the same footprint.
    We can't build our way out of congestion anymore by adding 
pavement. It is just not working. So what we are looking at is 
pushing a lot more through that corridor than we used to 
yesterday. And that is mostly that connected technology, using 
shoulders where we can dynamically open and close based upon 
the level of congestion, using the smart meter systems, getting 
information to you so you can avoid certain congested areas. So 
it is a combination of all of that we are doing.
    The connected technology, as we model that in--and this was 
mentioned earlier, the more and more we saturate a corridor 
with these connected vehicles, a lot closer these vehicles can 
run, and a lot more accidents that can be eliminated that truly 
causes most of the congestion in an urban corridor.
    So we are looking at them all. But, yes, to answer your 
question, they are either under construction right now or they 
are being scoped out as projects right now as far as using this 
technology to move a lot more traffic through the same 
footprint.
    Mr. Sires. Well, thank you.
    Mr. Bhatt, I would love 4 minutes just to get around a ramp 
in any part of my district. Believe me, 4 minutes, I will take 
it any day.
    Mr. Bhatt. Sir, thank you, Representative. And New York 
City is actually one of the--I think the largest deployment of 
V2I [vehicle-to-infrastructure communication] in the country 
right now from a connected vehicle standpoint, getting that 
dissemination of information out along with Tampa, and, 
actually, Wyoming as well.
    And I know that GM is testing their vehicles in San 
Francisco, again, another congested area. So there is a whole 
range of technologies. And we can follow up with your office 
afterwards around what some of them either may be in there or 
might be applicable for your region.
    Mr. Sires. Come. Come on to New Jersey.
    Mr. Bhatt. I would be happy to.
    Mr. Sires. I am inviting you. I will take you around. You 
are talking about cars close, without technology. All right. 
Thank you very much.
    I am excited about, you know, the future with this, but I 
just have a lot of concerns about it, and that is why, you 
know, I ask these questions. I think it is going to take longer 
than that. In trying to get 50 States to be on the same page, 
that is even tougher.
    So I thank you for being here.
    Thank you.
    Mr. Iwasaki. Representative, may I add something to your 
question?
    Mr. Graves of Missouri. Please, do.
    Mr. Iwasaki. This is the reason why the test beds are so 
important, because can you repeat a test 1,000 times and not 
disrupt the countless number of vehicles that are in your 
district, and then when it is ready to be deployed, you can run 
it out onto public streets and make sure that that vehicle does 
exactly what it says in a very urbanized area with high 
congestion.
    And the other piece is on getting the word out, 97 or 87 
percent of the population is worried. They want a driver to 
take over, just in case. And we liken that to the elevator. The 
elevator many, many years ago had an operator to pull that 
brake, just in case the cable broke.
    So in our case, one of our partners is AAA. So AAA has this 
over 100-year reputation of being laser-focused in on safety, 
because they want to be able to talk to their members, at least 
in northern California, 6 million members, to make sure they 
are aware of the progression of this technology so they aren't 
afraid when it is ready.
    Mr. Sires. Thank you.
    Thank you, Chairman.
    Mr. Graves of Missouri. Ms. Esty?
    Ms. Esty. Thank you very much. And this is really important 
and helpful information you are sharing with us today.
    I represent a very diverse district. I have got congested 
cities and I have got rural areas as well, and everything in 
between.
    So I think one of the important things is to deal with some 
of these issues about equity. You know, my kids don't want to 
drive a car. They use ride-sharing apps, and they live in 
cities. But in my district, the people who need to up-skill and 
get to community college can't afford a car and they can't get 
there because we have cut the local bus service.
    I have got veterans in the northwest corner of my district 
who are 30 miles from their doctor's appointments. So we have 
to be looking at systems, and I think talking about these 
systems, not as a Silicon Valley ``fun to have,'' but as a 
``need to have,'' to allow Americans who are aging, like my 
mother, who can't be driving a car, and shouldn't be driving a 
car, to get where she needs to go, and not to be locked in, but 
also for our veterans to get to appointments.
    And so part of that, I think, needs to be talking about it 
differently. When Model Ts came out, and I met a veteran 
recently, he told me he had saved up $25, earning 25 cents an 
hour to buy his first car, and it was a Model T.
    We have people alive in this country who embraced that. And 
it displaced all of the buggy makers and all of the people who 
were shoeing horses. And America made that decision.
    Clearly this is coming, but we need to figure out how to be 
responsible. And it is going to be a long transition.
    So hearing from you and getting feedback as we go about how 
do we train the workforce, the workforce that is going to be 
displaced, how do we make sure the public has confidence that 
they can do this and not get run over. But this, we did face 
with cars when cars first came in and were sharing the road 
with horses. And I think we need to go back and look a little 
bit about that history and learn how did those transitions 
happen? What made them happen well? How did they deal with 
people who did get killed by getting run over by cars? How did 
America make that transition at that point?
    But I really would like to drill down a little bit on this 
question about how we make these technologies accessible to the 
people who don't have means, for whom it is not a nice-to-have. 
It is the people who actually, they need this to conduct their 
daily lives. They need this to participate in American 
democracy. They need this to get to their job, they need this 
to get to work, they need this to get to their doctors.
    And how long are we going to have to subsidize? Because 
that is part of it. People don't want to pay the subsidies, but 
otherwise, Americans are going to get left behind.
    So I know, Ms. Castillo, I know you talked about, I mean, 
Norwalk, Connecticut, is doing this, not my district. And, Mr. 
Bhatt, how do we do this to make sure it is available to all 
Americans?
    Mr. Bhatt. I have answered a lot, so I will let Ms. 
Castillo have some time here.
    I think mobility represents freedom. And for so many 
Americans, I think we view this as a ``would I like to buy a 
new car that has this cool self-driving feature.'' And for 
parents with teenagers, they probably don't want their kids 
driving. And for parents with parents, they may have issues 
with parents aging out of driving.
    And so, there are tens of millions of Americans for whom 
this is not a cool technology issue. It represents a 
transformative chance for us to go out and connect them with 
jobs and hospitals and their loved ones in a way that we 
haven't been able to.
    So ITS America is incredibly passionate about making sure 
that our members are talking about that because, again, 
mobility is freedom.
    Ms. Castillo. Thank you. That is a great question.
    I think this is a great start to have conversations, 
especially bringing rural America into the discussions for 
technology. Oftentimes, we are left out of those discussions 
because people think that people that live in the most rural 
areas don't necessarily need, you know, because we are not 
facing congestion and all of that, but they still have a lot of 
issues and they still have a daily life to live, and they need 
to get there.
    With autonomous vehicles, I think one of the things in 
rural America that we also need to talk about is the majority 
of the drivers that drive in our service areas are older, they 
have already retired. They left their career. This is a second, 
you know, career for them. And so they are in their seventies 
and their eighties. And that is changing as people change, that 
generation is changing.
    And so all of that generation that doesn't want to just sit 
around, and they want to serve and they want to help, not that 
there aren't people that want to do that, but that is changing.
    And so we are looking at driver shortages. We also have to 
look at how can we manage that. And I know that the people 
that--in the more rural areas, they do like to have somebody on 
there. Our drivers know these people by name. They do that. 
There is nothing to say that we couldn't still give that same 
type of service on an autonomous vehicle, but we have to look 
at something, because drivers are definitely going to be an 
issue. And I am talking probably within the next 5 years, not, 
you know, 20 years.
    So I think we just need to continue to keep the discussions 
going. Rural America looks different to every rural area. You 
can talk to some people that say rural is, you know, like a 
5,000 county, and they are driving huge distances and then some 
that are butted up against urban areas, but they are still 
rural because they still can't get into it the urban areas. So 
we just have to keep the discussions going.
    Thank you.
    Mr. Barna. Chairman Graves, Representative Esty, that 
question is a great question, but more about the question, a 
great point is raised.
    What we see in this technology is about giving folks 
historically that haven't had access now the opportunity to 
have access, and to do it in a sustainable manner.
    If we look at public transit today, in Ohio, we have lost 
16 percent of our public transit ridership since 2011. A lot of 
that is Uber, Lyft, but a lot of it is transit agencies pulling 
back routes.
    And what that is, what we see with this technology, first-
last mile options here, whether it is sending these shuttles we 
are all testing--and by the way, we are getting ready to test 
our first one in Columbus, Ohio, in 60 days. But we are looking 
at different use cases with these shuttles all around the 
country. And it offers an efficient way to start giving folks 
who haven't had access to healthcare, jobs, entertainment. 
Think about the aging population, what this technology can 
offer.
    I was there when my father took the keys away from his 
father, and we may not have to do that tomorrow. And truly, 
access is very proportional to longevity. And that is, again, 
where we see this technology.
    We also, you know, we have a workforce corridor project 
where there is a challenge now with companies getting able 
bodies to their jobs. And now we are seeing, we talk about 
public-private partnerships, we are seeing a more proactive 
role by the private sector in transportation, and that is the 
reason being. So we are studying between Cincinnati and Dayton. 
There are a lot of logistic companies between the two cities. 
And we are working with them, working with even private ride 
share companies about how we can best get people to jobs.
    So the question was great. The point is great. But this 
technology offers probably more promise in giving folks access 
than we have seen, at least in my generation.
    Mr. Iwasaki. Chairman Graves, Representative Esty, let me 
add a little bit to that.
    So we have two pilot projects. Two vehicles are running on 
public streets in San Ramon currently. It is a private-public 
partnership in that a business park owner--it is a 600-acre 
business park--he has paid to lease these two vehicles for 2 
years. So we are doing the testing in that fashion to try to 
figure out how does he get the 30,000 employees to their places 
of employment when the bus drops them all off at a location if 
they are in a modal center.
    We are rolling out the third vehicle that we have access 
to. The city of Dublin in the county to the south of us, 
Alameda County, and that is a public-private partnership.
    So the transit agencies, Livermore Amador Valley Transit 
Authority, and County Connection, our central bus provider in 
Contra Costa County, they are going to oversee that. So they 
don't get into the California Public Utilities Commission issue 
of running a jitney service and all those kinds of things 
because they have a license to do that.
    And so, we are trying to make sure what is the right 
business model, because that is the piece that we can't figure 
out, is how do we fund this in the future and what is the best 
way? And so through research, we are trying to figure out what 
is the business model to do that.
    Mr. Graves of Missouri. Thank you very much.
    I am reminding Members that we have 5 minutes each, not 10 
minutes.
    Garret.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Mr. Bhatt, I have a question for you.
    Right now, when I watch transportation planning occur, 
oftentimes what happens is they will lay down the rubber hoses 
and they will count cars that drive over a certain road, 
determine a level of service, and decide if they need to add 
additional lanes, or what have you.
    With the evolution of Google Maps and Waze--and actually, 
one of my co-workers let me know that she still prints out 
MapQuest directions, which I didn't know existed. Thanks, 
Nancy. But you have this just amazing amount of data that 
doesn't just tell you where people are driving, but it actually 
tells you where they are starting and ending.
    And so in many cases, transportation planning could be 
revolutionized by taking that data and realizing that we don't 
need to add more lanes on the road that goes like this and goes 
like this and then comes back to here. The reality is, many of 
the people, majority of the people are simply trying to do 
this. They are using these roads because it is the only way to 
get there.
    Are you aware of any efforts right now, anywhere in the 
country, where that type of integration is occurring to help to 
revolutionize transportation planning in a way where you can 
actually reduce miles traveled, save gas, save emissions, save 
time, anywhere in the United States, or even around the world?
    Mr. Bhatt. Yes, Representative Graves. There is a lot, and 
to manage the time well, I will be happy to follow up 
afterwards, as well. But, you know, we use----
    Mr. Graves of Louisiana. I think we have another 6\1/2\ 
minutes, but----
    Mr. Bhatt. We use sort of a late 20th-century 
transportation planning process now that drives us into a 25-
year plan, and then we make 50- and 100-year estimates. And all 
I know is that that estimate is wrong because it doesn't take 
into account a lot of these technologies.
    And so it does need to change. It needs to evolve rapidly. 
What we did in Colorado at the DOT is we got away from, like, 
making--because we don't know yet what the impact of autonomous 
vehicles will be. Will it reduce VMT? Will it reduce demand? 
And will it increase demand? And will it increase the trips?
    And so what we have done, is we started trying to develop 
scenarios. So early adoption, less VMT, more VMT, and you 
create scenarios around it. But there are lots of great 
examples nationally and internationally where people are 
integrating technology now into transportation planning so that 
it is not just 20th-century planning.
    Mr. Graves of Louisiana. I think autonomous vehicles are 
going to increase VMT, because I am going to be so mesmerized 
by the technology, I am going to make it drive me in circles.
    But second question, and sort of related. Are you aware of 
any--going back to the first one, Secretary Foxx and I, the 
previous Secretary Foxx and I, had a number of discussions 
about ways to try and push that type of approach. Because I 
really think it could revolutionize how we invest in 
transportation projects around the Nation.
    But second, talking about Waze and Google and other apps 
that are available to help guide you in your traffic 
management, are you aware of any efforts whereby those types of 
technologies are communicating directly with ITS systems to 
where the ITS is communicating back and saying, traffic light 
is going to be green in 48 seconds, drive 27 miles an hour and 
you won't have to sit there and wait?
    Mr. Bhatt. Representative Graves, yes, there is a SPaT 
challenge that is currently underway trying to get all 50 
States to get 20 signals coordinated so that you can 
communicate to the vehicle that a signal is going to be red. As 
Mr. Iwasaki talked about, moving through the corridor.
    There are lots of third-party providers that collect the 
data. The data is what is key around making these decisions. 
And you can get that data through third-party providers that 
are linked in with some of our transportation management 
centers. There is a V2X [vehicle-to-everything communication] 
deployment in Colorado right now so that if somebody's airbag 
deploys, that information goes from vehicles to other vehicles, 
and vehicles into the TMC to help disseminate that.
    So that is the next sort of great leap forward here, and 
that is, it is here now and getting more traction.
    Mr. Graves of Louisiana. Thank you. Look, I represent Baton 
Rouge, Louisiana, in addition to a number of other area in 
south Louisiana. And we have, I think, the last study I saw, I 
think the 14th worst traffic in the Nation. Who would have 
thought Baton Rouge, Louisiana? And we are not going to be able 
to pour pavement fast enough to address our problems.
    And when you look at the surface roads that are available 
and the lack of efficiency there, it is going to have to be 
part of our solution. And technology, I think, can really help 
to buy us some time and help to alleviate some of the amazing 
traffic problems that we have.
    I would love to work with you all on that. I know that in 
the FASTLANE bill, we did emerging technology or technology 
grant program and others, but I think we are missing some 
opportunities to help gain some efficiencies.
    I yield back my 4 seconds.
    Mr. Graves of Missouri. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I thank our witnesses for being here 
today. And Mr. Iwasaki, I look forward to being back out in 
Contra Costa sometime soon and see what the latest is that you 
are doing, especially at the GoMentum test site there.
    I would put Chicago's traffic up against anyone else's for 
being the worst in the country. Technology, we have great 
opportunities in technology to make real improvements.
    I wanted to ask about the issue in terms of testing, 
because we want this technology to get on the road so we can 
get all the advantages, but we have to make sure that it is 
safe.
    And as Mr. DeFazio had talked about earlier about VOD, you 
know, choices have to be made if there is a--who he is going to 
run over, had he had to make that choice. So these are 
questions that have to be answered, but we need to know what 
the technology is going to do. We need to know if the 
technology is safe.
    There are two things when you are talking about automated 
vehicles that you really need to test. You need to test 
whatever you are using for the sensors to sense what is around 
the vehicle, but you also need the software. And the software 
has to make the right decision or the decision that we decide 
is the right decision in difficult edge cases.
    So have you looked at anything in terms of using a 
simulation to test the software?
    Should we have a national standard where all the software 
needs to be tested in a particular simulation to determine if 
that software is safe for an autonomous vehicle?
    I was wondering if any of you have done any work on that or 
any comments on that, starting with Mr. Iwasaki?
    Mr. Iwasaki. Chairman Graves, Representative Lipinski, 
thanks for the question. I appreciate that.
    We are actually not modeling any of the software currently 
out at GoMentum Station. We have a number of partners that are 
testing their artificial intelligence out at GoMentum Station. 
So at Toyota research and Baidu, Baidu is on its third 
generation of the Apollo platform, and Toyota research is 
making great strides connecting their sensors to that 
artificial intelligence.
    But we had this conversation before about the standard 
testing protocol for the software, and we haven't started on 
that at GoMentum Station.
    Mr. Lipinski. Anyone else have any--Mr. Barna?
    Mr. Barna. Chairman Graves, Representative Lipinski, we are 
developing, as I mentioned in my testimony, 540 acres of 
autonomous-vehicle, connected-vehicle infrastructure at the 
Transportation Research Center.
    And what that is able to do, able for us to do, is to test 
in that closed laboratory setting, testing software, testing 
the limits of the software and what the vehicles can do before 
we put it within live traffic.
    So we are currently under construction. And those 
facilities include a six-lane high-speed intersection, a 
highway loop, as well as residential streets with roundabouts, 
so we can take the software to the limits as far as what it is 
capable of doing. And then with TRC connected to the U.S. 33 
Smart Mobility Corridor, we can test it there and then bring it 
out into live traffic. But basically, that is the idea of the 
ABCD testing.
    Mr. Lipinski. Does anyone think that having that, the 
Federal Government should be developing or should have a set, 
you know, software that the, you know, autonomous vehicles 
software has to be tested through to see what it does in all 
cases that we can posit?
    Mr. Barna. Chairman Graves, Representative Lipinski, you 
know the National Highway Traffic Safety Administration sets 
the minimum standards as it relates to the automotive 
manufacturers. And that may ultimately be the vehicle where we 
set those standards as far as what the vehicle, the autonomous 
vehicle, should be capable of doing.
    I agree at some point that that probably should be set at 
some point in motion. If we look at infrastructure, if we look 
at, for instance, connected vehicles and certain standards, I 
believe that the Federal Government plays a role in setting 
those standards, setting the interoperability specifications so 
that we don't have a vehicle operating differently in all 50 
States.
    Mr. Bhatt. Just real quickly, Mr. Lipinski. I think that 
U.S. DOT is providing some leadership in this. There are, under 
the Federal legislation that is being considered, there are 
safety reports that would have to be submitted by the 
manufacturers, also that Turner-Fairbank is working with 
software developers, and they are looking to build some open 
source programs.
    So I think it is this blend of regulation and private-
sector innovation that I think will get to the safety component 
that you are looking for.
    Mr. Lipinski. Thank you. I yield back.
    Mr. Graves of Missouri. Mr. LaMalfa.
    Mr. LaMalfa. Thank you. I appreciate the panel being here 
today. Sorry for my late arrival with other committees meeting 
at the same time.
    I am going to come from maybe a little different angle on 
this.
    It seems when we are innovating for our surface 
transportation and traffic needs, we are not even fully using 
our capabilities we have right now. I mean, I am all about 
traffic flow. And so when I travel in my home State of 
California, I see that we are not even taking advantage of 
ability to--when we are spending money, when we have projects 
that are open--we are not adding additional passing lanes or 
things like that.
    We have this money here that is tied up in particular 
safety-type spending, and other dollars that are tied up in 
maybe adding expanding capacity, things like that.
    And so they don't seem to be able to meld them together at 
the same time, so that when you have a project that is open and 
a piece of highway that is torn up, it is only you think about 
do one or another, not adding an additional passing lane; or 
things such as stoplights that are timed better to keep traffic 
moving instead of all bottling up, you know, truck traffic and 
such, so that it takes miles and miles for the traffic to 
finally become less like a caterpillar and flowing again.
    So the frustration I have with traffic flow doesn't seem to 
be addressed as much by the bureaucracy.
    We have a project, in my district, Highway 70 in northern 
California that desperately needs to be done. And we have had 
much, much carnage on there the last couple of years, and over 
many years, that has been--dollars are finally going to move 
forward on that, but, again, we are going to have to study it 
for 2 years, an existing highway, add two lanes.
    I just wonder, can anybody on the panel comment on the 
inability to walk and chew gum at the same time on expanding 
these highway projects at the same time you are doing safety 
work, that you are not doing more flow work--not you, but in 
general, in the bureaucracy?
    I see we have somebody from Contra Costa here. Would you 
like to touch upon that and see, just in general, on what--with 
our highways? Anybody on the panel here, how can we do better 
with putting the dollars forward to have better traffic flow 
and not this frustration?
    Because I know drivers out there just continue to be 
frustrated. They have torn up highways and not the additional 
flow that, I think, that would be very helpful for all our 
goals.
    Mr. Iwasaki. Chairman Graves, Representative LaMalfa, I, 
too, am from California and I, too, share sometimes your 
frustration.
    So we have a seven-pronged approach, I mentioned earlier, 
to try to fix congestion on a heavily congested corridor, 
Interstate 680.
    It does allow for auxiliary lanes. Those are the widening 
between the interchanges, allow for weaving on and off the 
freeway. So it is lengthened, it adds a little capacity to the 
roadway. We are also going to finish our HOV lane and we are 
going to make them express lanes so that single occupant 
vehicles, if they choose, and they are late, and they want to 
pay a toll, they can get into that HOV lane, adding capacity to 
your mixed-flow lanes.
    But when we go into a corridor, I was talking earlier about 
how we change the way we plan the future. And so what we are 
trying to do is not take today's technology, model against the 
next 30 years and determine we are going to have to widen every 
road in Contra Costa, because by the year 2040, our population 
is slated to grow by 29 percent.
    When we go into the corridor, we want to do it once. The 
problem is, in many cases when you are working for DOT, you 
have a certain type of money that you are spending, and so you 
have a safety project, so you fix the safety project. But you 
need more capacity but that is not the right kind of money to 
add capacity.
    Mr. LaMalfa. As I was mentioning, why can't we have a 
better process of having them move in parallel when you have 
the construction there, when you have the roads torn up, when 
you had everything going on, add that additional lane, or 
whatever needs to be done, that could be added.
    And so what can we do in this Federal committee to be 
helping with that?
    Mr. Iwasaki. I think we need better planning. I think we 
need to incentivize better plans that once you go in and tear 
up a corridor, do it once, because that is what the taxpayers 
expect. They don't want to see 2 years of construction to put 
an auxiliary lane on the outside, and then 4 years to put an 
HOV lane on the inside. And that is 6 years later, plus it took 
20 years to plan the project.
    I am not here to talk about regulation reform, because I 
was told not to, so I am not going to do that.
    Mr. LaMalfa. But you feel it in your heart somewhere there, 
huh?
    Mr. Iwasaki. I do have it in my heart.
    Mr. LaMalfa. Close enough, I guess.
    Mr. Iwasaki. We need to work together to make sure that the 
type of money is flexible enough, on the State level as well, 
so we can do those projects and coordinate those projects, 
keeping in mind that the taxpayers are the ones that are 
affected. Our constituents are affected on a daily basis when 
you widen the right side, then come back 2 years later and 
widen the left side of the road.
    Mr. LaMalfa. And when you are talking about Highway 70, 
those people that are losing their lives in all the accidents 
on a State highway that is two lanes that needed to be 
connected a long time ago to a four-lane.
    Thank you, Mr. Chairman. I appreciate it.
    Mr. Graves of Missouri. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman, and thank you for 
calling this hearing together. I think it is very informative, 
and very, very interesting and very, very exciting as well. But 
I live in a city in California, Thousand Oaks, which is one of 
the most bicycle-friendly communities in California. And so I 
wanted to talk a little bit about, as we put more intelligence 
into our transportation systems, how is that interoperability 
working with pedestrians and bicycle traffic?
    Mr. Barna?
    Mr. Barna. Chairman Graves, Representative Brownley, it is 
very promising as we see more and more pedestrians and bicycles 
interacting with vehicular traffic. We are also seeing an 
increase in fatal accidents between cars, pedestrians and 
bicycles. In our State, that number has gone up.
    This technology is now, we are getting to the point where 
the technology will be able to sense, you know, whether in the 
blind spots or any type of objects, whether it is pedestrians, 
bicycles, and giving these drivers much more warning than they 
had before. So, you know, as far as the connected vehicle 
environment, or even just--it is a little more of the 
autonomous features that they are able to sense pedestrians, 
bicyclists all around.
    Just now, as many cars that are coming off the assembly 
line today, you have the blind spot warnings where you see your 
lights in the rearview mirror come on if there is somebody 
there. That technology is advancing to the point where we can 
detect pedestrians and bicyclists as well.
    If we look at in the downtown space, our signals are 
actually becoming the eyes and ears for us there. So you making 
a right turn sometimes might be blinded by parked cars. You may 
not see a pedestrian in that crosswalk.
    What happens is now that signal identifies that pedestrian 
in that crosswalk and sends you a signal in your car that there 
is a pedestrian in that crosswalk.
    We are actually doing that testing right now, as we speak, 
in the city of Marysville as we advance signal technology, but 
the signal is acting, now, kind of as a watchdog for the entire 
intersection as sending messages to the car, hey, you have got 
a pedestrian in that walk, or you have got a bicycle 
approaching such and such. Let alone it is communicating that 
information to you, but it is also making decisions on its own 
as far as how it changes the pedestrian crossings and as well 
as even the reds, greens, in all directions.
    Ms. Brownley. Mr. Bhatt, do you have a comment?
    Mr. Bhatt. Yes, just really briefly. I think it is a great 
question.
    When you delve into the fatality increase across the 
country, where we are seeing the biggest increase is in 
vulnerable users of the system, bicyclists, pedestrians, 
motorcyclists. And I believe it is because of this epidemic of 
distracted driving that we have out there.
    One of our members in New York City has this great program 
called Vision Zero, and they have actually seen a reduction in 
pedestrian and bicyclist fatalities. And all of this technology 
that is out there, I think, will help us with this distracted 
driving issue, which is really driving a lot of these 
fatalities.
    Ms. Brownley. Thank you very much.
    And Ms. Castillo, I wanted to ask you, my other 
responsibility in Congress is taking care of our Nation's 
veterans. And I was just wondering if you collected any data, 
and what you are doing out in the rural areas on veterans?
    I know there is a medical center in Iowa. There are 
obviously community clinics throughout. And if you are 
collecting any of that data in terms of veteran use?
    Ms. Castillo. Yes, we work with our veterans association, 
and they all have their own vehicle, which they take a lot of 
veterans to various clinics, but because their vehicles are not 
accessible vehicles, we have partnered with them, and we allow 
the veteran to--we take them to the veterans hospital in the 
Des Moines area or in the Marshalltown area, and then they just 
reimburse us for a cost, because they are not able to take 
those.
    So we do have that data. I don't know what that is off the 
top of my head. But, yeah, we store all of that in our 
software.
    Ms. Brownley. Well, I would love to, if you would, share 
the data.
    Ms. Castillo. I will absolutely do that.
    Ms. Brownley. Because I think what you are doing is 
possibly an important solution in terms of veterans getting to 
their healthcare throughout the country. So I actually would 
like to see the data.
    Ms. Castillo. I will absolutely share that with you. It has 
been difficult, to be quite honest, in working with the VA 
[Department of Veterans Affairs], but we don't want to take the 
transportation away from them. We just want to be able to 
partner with them in doing that.
    So I think there are some more opportunities we have. We 
just haven't been able to make those connections, but I will 
get you the data, absolutely.
    Ms. Brownley. Thank you very much. And I yield back, Mr. 
Chairman.
    Mr. Graves of Missouri. Mr. Smucker.
    Mr. Smucker. Thank you, Mr. Chairman. I appreciate you 
holding a hearing on this topic.
    It is fascinating for me to contemplate what our 
transportation system will look at just a few decades from now.
    We know mobility will be increased and that will change the 
lives of so many people, increase their quality of life, but it 
is also really great to see the work that each of you are 
doing. I appreciate all of you being here, but also for the 
innovation that you are driving in your organizations.
    Mr. Barna, you just, a few questions ago, mentioned two 
specific areas of public policy, really, from our perspective 
that you all are impacting in a big way. And that is, one, that 
folks do want to age in place, at their homes. And 
transportation has always been one of the biggest barriers to 
that, so some of the things that you are doing will increase 
their quality of life and enable them to stay with their 
families longer.
    And then the other is, today we have huge workforce needs 
and we are working to connect people who are not participating 
in the workforce today with jobs that are available, will help 
lift people out of poverty. And transportation has always been 
one of the biggest challenges there. So the kind of things that 
you are doing is helping in that area as well.
    Ms. Castillo, you mentioned in your testimony just a little 
bit ago that one of your ongoing challenges is staffing and how 
you struggle to recruit and retrain employees. I am bouncing 
back and forth between two hearings. There is one just down the 
hall with the Committee on Education and the Workforce, and we 
are talking specifically about apprenticeship programs, and 
other policies that we could be advancing here at the Federal 
level.
    What I hear from you is not unlike what we hear from 
companies all across my district and all across the country. 
Truck drivers are in short supply and, in fact, companies 
everywhere are having trouble filling positions as we see more 
retirees.
    You said that a lot of your drivers are 65 years old and 
older, and you are going to have a severe shortage within 5 
years. So what, in your opinion, could we be doing here at the 
Federal level to ensure that there is skilled workforce 
pipeline in place that can fill those positions? Maybe 20 years 
down the road we don't need as many drivers, but now we 
certainly do. What could we be doing?
    Ms. Castillo. And I do think from a rural perspective, 
employees typically, in more rural settings, are not at a pay 
grade that a lot of the urban employers are, so people want to 
make more money, a livable wage, actually.
    And the majority of the rural systems with drivers, they 
are all part-time. Very few of them have full-time positions 
with benefits. And so for us to recruit younger drivers who 
would like to stay in our agency and, you know, grow with us, 
which would be ideal, they can't live off of a part-time job 
during the day.
    So for rural transportation systems, it really does come 
down to funding. We are all doing multiple jobs like our urban 
counterparts, which have departments of these people, and these 
people, and these people. We have a person that is four 
departments.
    And a lot of that just comes down to funding. I mean, it is 
an issue with funding. So one of the things that we have been 
doing is really working toward commuter transportation and 
trying to get that so that employers are buying into that. We 
have been working with economic development so that what we are 
doing also has an impact in the community, and hopefully, some 
of that then, they buy into our system as well. And so that is 
kind of keeping some of the money flowing, kind of in a circle 
that we are helping our whole community.
    Because when we talk about our communities, there are 
communities, we live in these small communities, our drivers 
know all of the people that we are serving. So that is really 
important to us to keep that going. But it is actually getting 
people to make a livable wage, and that is where the smaller 
transportation agencies need to come up to that. Unfortunately, 
we just don't have the funding to do that right now.
    Mr. Smucker. Thank you. Just one other quick question for 
Mr. Iwasaki.
    You had mentioned in your written testimony the importance 
of gathering public input.
    And you are employing some of the latest technologies to 
engage with stakeholders and you have seen a real increase.
    Could you expand just a little bit about how that works?
    Mr. Iwasaki. Chairman Graves, Representative Smucker, thank 
you for the question.
    So we have changed the way we go out and normally gather 
public input.
    Normally, you go to a library at 6 o'clock in the evening 
on a Thursday and you get 20 people or 40 people; 10 are your 
consultants, and the other 30 don't like you. And so you get 
very skewed input from the public.
    So what we have done is we have used social media. We have 
revamped the website, KeepContraCostaMoving.net, and ask you 
for your input. We give you an allocation of Contra Costa 
coins, CoCo coins, 10. You make an investment. Everybody--and 
we know exactly where you are logging into the computer. So if 
you are in Alameda County, you don't count, but if you are in 
Contra Costa, you do.
    We have changed the way we use Facebook. So Facebook now 
gathers information for us. And we would aggregate all that 
information. We changed the telephone town hall. Normally you 
propagate out your message, you are running for Governor or 
wherever, and you send out a robocall message to thousands of 
people.
    What we do, we robocall 15,000 people in each of the 4 
subregions of our county. And, say, on Friday night, the 
executive director and an elected board member, they are going 
to answer your questions about transportation live for an hour 
and a half.
    And we ask polling questions: Do you like potholes? Press 
1. Do you not like potholes? Press 2. It is not that basic, but 
you get the point.
    When we aggregate all this input, four things came up. One, 
they don't like potholes. Number two is they don't like those 
gosh darn red lights at midnight when nobody else is around. 
Three, they want a better subway, BART system. Four, they want 
a first- and last-mile solution.
    So when we aggregated all this information together, we got 
more comments this cycle of our countywide transportation than 
the previous 25 years combined.
    And I think that we don't use enough social media to mine 
that. We tend to use the old methodologies that don't work, but 
yet we gather information that way, and we are seeing things 
from a skewed perspective. And we don't see things from an 
overall perspective. And I think technology is helping us 
gather better information, make better decisions on using our 
Federal, State, and local funding.
    Mr. Smucker. And allows a lot more people to participate.
    Mr. Iwasaki. Absolutely.
    Mr. Smucker. Thank you.
    Mr. Iwasaki. You are welcome.
    Mr. Graves of Missouri. Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chairman. Mr. Bhatt, in your 
testimony, you mentioned a need for comprehensive electric 
vehicle, or EV infrastructure plan. I represent Detroit. I 
represent the Motor City. I have GM as the world headquarters. 
I have, in my district, one of the largest number of tier 1 R&D 
for auto parts, and everyone is testing electric vehicles.
    I had an opportunity to ride in an autonomous vehicle. 
There were some interesting moments in it, but it was still 
autonomous.
    I have heard repeatedly from the industry that while I 
heard Mr. Barna say he did not want regulations, but we must 
move forward to a national plan when we start talking about 
autonomous vehicles and our infrastructure plan for electric 
vehicles.
    Please tell me how you and your colleagues can help us move 
faster in that discussion? Because it is, for me, a giant 
failure if we are going to be behind the eight ball, all the 
technology is ready, and every State is trying to implement 
their own plan, and then we are actually hindering the success 
of innovation if we don't have a national plan.
    So would you please comment on that?
    Mr. Bhatt. Thank you, Representative Lawrence. My wife was 
actually a teacher at Renaissance High School in Metro----
    Mrs. Lawrence. Oh, cool. Yeah.
    Mr. Bhatt. So from there, just spent the weekend there, and 
our vice chair, our chair next year is Gary Smyth from General 
Motors, head of global R&D.
    Mrs. Lawrence. Yes.
    Mr. Bhatt. So Detroit gets it.
    Mrs. Lawrence. Detroit gets it.
    Mr. Bhatt. Michigan is a hotbed. There are all kinds of 
activity around the country.
    I think you have a great question. And we have to find that 
right balance of regulation that creates a level playing field 
and standards for everybody that doesn't then stifle the 
innovators that are working in Contra Costa County, or in Ohio, 
in order to move forward.
    On the EV piece, I think it is generally accepted that the 
future of transportation is electric automated. It is not in 
the next couple years, but over the next coming decades, this 
has an implication for gas tax revenues and others. But I think 
that the innovators are out there, whether in California or 
Michigan, or around the country, we just need to provide a 
level playing ground and framework.
    And U.S. DOT is taking strides, but I think the next 
authorization can take some important steps there.
    Mrs. Lawrence. Have you all gotten together to say this is 
a plan that we think will work? Or are you resting on the 
shoulders of the brilliant minds of Congress to present a plan?
    Mr. Bhatt. So our association represents, you know, over 30 
States, cities, private-sector companies, research 
institutions. And so we have a task force that will be, 
depending on reauthorization needs, we are already having those 
discussions now, because while we have great faith in Congress' 
ability to provide good legislation, we want to provide the 
best input possible.
    Mrs. Lawrence. And I just want to be on the record, great 
innovation is not solely in the hands of Congress. It has to 
have all hands on deck. And I am always concerned at the speed 
and the progress. We get there eventually, but this technology 
is one that we really need all hands on deck so that we can be 
efficient and be timely so that we are all moving forward 
together. So your task force, I really welcome some input.
    Now, this is a question for you, Mr. Barna. I am a person 
who really gets the crisis that we are having in our skilled 
trade and our workforce. As we innovate, as we move forward, 
our workforce is not moving at the same pace, so, you know, we 
need the educational community on board, but we also need you, 
the innovators, and those in corporate America to be a partner.
    Can you talk about how, in the State of Ohio, are you 
looking at your workforce for autonomous vehicles and for 
connected vehicles? How are you building that workforce, and 
what type of opportunities are there going to be for American 
workers in your field?
    Mr. Barna. Chairman Graves, Representative Lawrence, that 
is another great point. And as I mentioned before, next to 
safety workforces, the number two question we get. We created a 
group within DriveOhio that specifically focuses on workforce 
development.
    All these projects that we showed on the slide around the 
State of Ohio has to have a workforce development component to 
it. So as we do each of our projects, it is not just a bunch of 
engineers sitting in a room trying to develop connected 
technologies. We actually have academic partners, private-
sector partners, and we are looking at a workforce component to 
each of the projects.
    So we are involving community colleges. We may go to the 
high schools. A lot of our meetings to which we hold in 
DriveOhio, our last one was at a STEM program, so we have a 
group under the direction of Rich Granger, the State of Ohio, 
who actively gets involved with folks developing curriculum. 
And what we do is look at curriculum surrounding this type of 
technology.
    So if we go and install some of the infrastructure for one 
of our projects, there are terms we use as onboard units where 
you put these receivers-transceivers in cars, or roadside 
units, receivers-transceivers on the highway. We are actually 
getting the students involved to be able to help install the 
technology. It is not that easy.
    Mrs. Lawrence. I do want to say, because I know my time is 
running out. That is exactly--I really appreciate how you have 
looked at, not only the innovation, but the education of the 
workforce. And I want to really engage you and with your 
representative as we talk about workforce, so we can use best 
practices around the country.
    I yield back my time and thank you so much. And I am 
excited about the flying car that will be coming soon.
    Mr. Barna. Thank you.
    Mr. Graves of Missouri. Seeing that there are no other 
further questions, I would like to thank each of our witnesses 
for your testimony today.
    I appreciate it very much. And with that, I would ask 
unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing, 
unanimous consent that the record remain open for 15 days for 
additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, that is so ordered.
    No other Members--obviously, there are none--have anything 
to add, then the hearing is adjourned.
    Thank you.
    [Whereupon, at 11:59 a.m., the subcommittee was adjourned.]



                       Submissions For the Record

                              ----------                              


      Responses of Julia Castillo to questions for the record from
                            Hon. Scott Perry

    QUESTION: Ms. Castillo, in your testimony, you highlight 
the need to find ways in which to efficiently meet the 
transportation needs of rural Americans despite the added 
challenges and costs associated with servicing rural 
communities, stating, ``This is where innovation and technology 
come together to play a vital role.'' Do you believe this 
combination of innovation and technology can be utilized to 
reduce costs while at the same time expanding the access to 
transportation in rural America?

    ANSWER: Thank you for your follow-up question in response 
to my testimony before the Subcommittee on Highways and 
Transit, and I appreciate your dual concerns in striving for 
improved efficiency and improving access to mobility options in 
rural America.
    Innovation and technology offer tremendous opportunities 
for community and public transportation providers like our 
agency to address the priorities of our communities and 
customers. Like a manager at any business, I have to make 
informed decisions on tradeoffs between operational efficiency 
and expanded services. Even when armed with new technology and 
innovative strategies, there are seldom win-win scenarios where 
we can reduce our costs while delivering a better product at 
the same time. In an era of constrained investment, we can 
utilize innovative practices and emerging technology to provide 
more options using the same resources, or we can provide the 
same options when fewer resources are available.
    Rural and specialized transportation providers like mine 
are often pitched the concept of coordination, which is really 
just a hope of program managers that we finely thread the 
needle of doing more with less. Mindful of our responsibility 
to be good stewards of public investment, our mission is to 
meet the mobility needs of our region by operating responsive, 
effective and efficient service. Innovation and technology are 
important tools we use to achieve these objectives.
    Again, thank you for the question, Congressman. I--along 
with the staff at the Community Transportation Association of 
America, of which HIRTA is a member--are available as resources 
to you and your staff at any time.

     Responses of Shailen P. Bhatt to questions for the record from
                          Hon. Mike Gallagher

    QUESTION: The U.S. Department of Transportation has been 
encouraging the use of public-private partnership (P3s) as 
innovative financing models to support physical transportation 
infrastructure deployments. Last Congress, the Fixing America's 
Surface Transportation Act (P.L. 114-94, FAST Act) created the 
Build America Bureau (formerly the National Surface 
Transportation Infrastructure Finance Bureau) to help 
facilitate access to innovative funding opportunities, 
including P3s. What forms of P3s do you think can help support 
expanding ITS deployments? Are transportation infrastructure 
owner-operators equipped to work with commercial communications 
providers in P3s for ITS deployments?

    ANSWER: One of the fundamental aspects of a public-private 
partnership (P3) is revenue, so ITS deployments with the most 
revenue (tolling) have generally had the most P3 support. 
Another example is fiber sharing--the Utah Department of 
Transportation leases sections of its fiber assets to the 
private sector, thereby enabling revenue for the state and 
access to communications equipment. Another approach is cost 
savings. Cities, for example, are deploying highly-efficient 
street lights, which result in cost-cutting and create P3 
opportunities. Transportation infrastructure owner-operators 
are equipped to work with commercial communications providers 
in P3s for ITS deployments.

     Responses of Randell Iwasaki to questions for the record from
                            Hon. Scott Perry

    QUESTION: Mr. Iwasaki, in your testimony, you state that 
Contra Costa Transportation Authority's ``over-arching goals 
are to ensure that our plans use taxpayer dollars wisely and 
that we are investing in the technology of the future--not 
yesterday's technology.'' In light of the rapid pace of private 
sector innovation, it has become apparent that federal policies 
stand as a barrier to integrating these technologies of the 
future. Do you feel that focusing our federal policies on 
encouraging innovative and high-performing mobility pilot 
programs would allow for a more seamless integration of these 
technologies, providing increased efficiency and quality of our 
transportation systems?

    ANSWER: Representative Perry, thank you for the question. 
My answer is yes--but the devil is in the details. Having 
federal policies that encourage innovative and high-performing 
pilot programs would help determine how new technologies can 
enhance and improve the transportation system. I am a big 
believer in research. The value in research is testing 
applicability and that is what pilot programs can do. One of 
the challenges are that federal funding is not always flexible 
enough to use to support these pilot programs. Another is that 
current federal procurement rules make it difficult for 
agencies to quickly procure current and new technology for 
testing. By the time an agency has completed all the 
appropriate paperwork and waited for the required approvals, 
the ``innovative'' technology they were hoping to test has been 
eclipsed by a new version, or new technology. It is very 
difficult to be nimble and responsive within the current 
federal funding framework. Lastly, the nature of a pilot 
program is that it's a trial period to put new technologies 
through the paces. Once that technology has been proven to work 
in multiple locations or tests, federal policies should 
consider how to revise policy and funding guidelines to 
accommodate future, more permanent procurements.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Additions to the Record

            ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                <all>
</pre></body></html>
